                    OFFICE OF INSPECTOR GENERAL
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                          Incurred Cost Audit of Grants Awarded
                                           to the
                                Alabama Governor's Office
                            on National and Community Service

                             OIG Audit Report Number 02-2 1
                                     June 20,2002




                                   Financial Schedules
                                           and
                              Independent Auditors' Report
                                      For the Period
                          January 1, 1997 to December 3 1,2001




                                        Prepared by:

                                       KPMG LLP
                                   2001 M Street, N.W.
                                  Washington, D.C. 20036

                                Contract No. GS 23F 8127H
                                  Task Order No. 01 -04


This report was issued to Corporation management on September 30, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than March 31, 2003, and complete its
corrective actions by September 30,2003. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                        CORPORATION
                            Office of Inspector General                                 FOR NATIONAL
                  Corporation for National and Community Service
                                Audit Report 02-21

                 Incurred Cost Audit of Grants Awarded to the
          Alabama Governor's Office on National and Community Service

Introduction

The Corporation for National and Community Service, pursuant to the authority of the
National and Community Service Act, awards grants and cooperative agreements to State
Commissions, nonprofit entities, tribes and territories to assist in the creation of full and
part time national and community service programs. Currently, in accordance with the
Act's requirements, the Corporation awards approximately two-thirds of its AmeriCorps
Staternational funds to State Commissions. The State Commissions in turn fund and are
responsible for the oversight of subgrantees who execute the programs. Through these
subgrantees, AmeriCorps members perform service to meet educational, human,
environmental, and public safety needs.

The Office of Inspector General (OIG) engaged KPMG LLP to audit Corporation grants
to the Alabama Commission and its subgrantees for the period from January 1, 1997
through December 31, 2001 for ArneriCorps, Promise Fellows, Administration, and
Program Development and Training programs. The auditors identified questioned costs
of $780,999 (approximately 14 percent) out of total claimed costs of $5,668,755. The
primary objective of the audit was to express an opinion concerning whether the
Schedules of Award Costs presented fairly the financial results of the awards.
Additionally, in performing the audit, the auditors considered the Commission's internal
controls over financial reporting and compliance with Federal laws, applicable
regulations, and award provisions.

The audit report expresses a disclaimer of opinion on the Commission's Schedules of
Award Costs due to the lack of controls over financial reporting and compliance, as well
as the nature of the findings identified. The audit report also identifies a number of
matters which require corrective action relating to internal control over financial
reporting. The report concludes that adequate procedures for monitoring the financial
activity and related compliance with laws and regulations of the Commission's
subgrantees are not in place, and that the Commission did not have an effective system
for ensuring quality control of financial reporting.

OIG has reviewed the report and the work papers supporting the auditor's conclusions.

OIG provided the Commission and Corporation a draft of this report for their review and
comment. Their responses are included as Appendices A and B, respectively.




                                                                                    Inspector General
                                                                                    1201 New York Avenue, NW
                                                                                    Washington, DC 20525
                                   Office of Inspector General
                        Corporation for National and Community Service
                          Incurred Cost Audit of Grants Awarded to the
                  Alabama Governor's Office on National and Community Service



                                                     Table of Contents




INDEPENDENT AUDITORS ' REPORT ....................................................

Summary .......................................................................................................

Report on the Schedules of Award Costs ......................................................

Schedules of Award Costs (Exhibits A - C)

     Exhibit A - Consolidated Schedule of Award Costs:
        AmeriCorps .......................................................................................

     Exhibit B - Schedule of Award Costs:
        Administrative. ..................................................................................

     Exhibit C - Schedule of Award Costs:
        Program Development and Training (PDAT) ...................................

     Exhibit D - Schedule of Award Costs (unaudited):
        Promise Fellows ................................................................................

Notes to Schedules of Award Costs ..............................................................

Report on Internal Control over Financial Reporting ...................................

     Material Weakness
        Grants and Program Management.. ...................................................
     Reportable Condition
        Financial Management and Reporting ..............................................
Report on Compliance ...................................................................................

     AmeriCorps Grant

          A. Compliance Findings Resulting in Questioned Costs .................
          B. Other Compliance Findings .........................................................

     Administrative and PDAT Grants

           C. Compliance Findings Resulting in Questioned Costs .................
           D. Other Compliance Findings ........................................................

     Other Procedures .....................................................................................

Responsibilities

     Management' s Responsibility .................................................................
     Auditors' Responsibility .........................................................................
 . . .
Distribution ....................................................................................................

Exhibits E-1 through E-10 - Supplemental Schedules of Award Costs - AmeriCorps

           Exhibit E-1 - Schedule of Award Costs:
           Birmingham AIDS Outreach .............................................................

           Exhibit E-2 - Schedule of Award Costs:
           Birmingham Cultural and Heritage Foundation ................................

           Exhibit E-3 - Schedule of Award Costs:
           Butler County Board of Education. ...................................................

           Exhibit E-4 - Schedule of Award Costs:
           Calhoun Community College ............................................................

           Exhibit E-5 - Schedule of Award Costs:
           Cooper Green Hospital ......................................................................

            Exhibit E-6 - Schedule of Award Costs:
            University of Alabama at Birmingham .............................................

            Exhibit E-7 - Schedule of Award Costs (unaudited):
            Birmin~hamPublic Schools ..............................................................
          Exhibit E-8 - Schedule of Award Costs (unaudited):
          Family Healthcare of Alabama .......................................................

          Exhibit E-9 - Schedule of Award Costs (unaudited):
          Mobile AIDS Support Services .........................................................

          Exhibit E-10 - Schedule of Award Costs (unaudited):
          Selma Digital Divide .........................................................................

Exhibit F - Follow-up on Pre-Audit Survey Report Findings
and Recommendations ..................................................................................


APPENDICES

Responses to Report

     Alabama Governor's Office on National and Community Service ...........Appendix A
     Corporation for National and Community Service .................................... Appendix B
            2001 M Street, NW                                             Telephone 202 533 3000
            Washington, DC 20036                                          Fax 202 533 8500




                               Independent Auditors' Report



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP performed an incurred cost audit of the costs claimed by the
Alabama Governor's Office on National and Community Service (herein referred to as
the Commission) and its subgrantees from January 1, 1997 through December 3 1,2001.
The primary objective of the incurred cost audit was to express an opinion concerning
whether the Schedules of Award Costs (Exhibits A through D) fairly present the costs
incurred by the Commission, during the periods under audit, in conformity with the terms
of the Commission's grant agreements with the Corporation for National and Community
Service (herein referred to as the Corporation). Additionally, in planning and performing
our audit, we also considered the Commission's internal controls over financial reporting
and its compliance with Federal laws, applicable regulations, and award provisions.
Further, we inquired of the Commission and its subgrantees selected for audit, as to their
awareness of the Corporation's Government Performance and Results Act (GPRA) goals.

SUMMARY

Our report expresses a disclaimer of opinion on the Commission's Schedules of Award
Costs due to the lack of controls over financial reporting and compliance, as well as the
nature of the findings identified, and the significance of the questioned claimed costs and
related match amounts identified in relation to total costs incurred.

Our consideration of internal control over financial reporting identified a number of
matters which require correction. We consider item 1 to be a material weakness and item
2 to be a reportable condition:

    1. Grants and Program Management - Adequate procedures for monitoring the
    financial activity and related compliance with laws and regulations of the
    Commission's subgrantees are not in place. Procedures for ensuring that verifiable
    records are maintained to support reported results in accordance with program
    requirements were not effective.
   2. Financial Management and Reporting - An effective system for ensuring quality
   control of financial reporting activities at the Commission was not in place.

Our tests of compliance with laws and regulations disclosed several instances of
noncompliance resulting in total questioned claimed costs and related match amounts as
follows:

AmeriCorps Program
      $349,179 (12%) of Federal claimed costs out of total Federal claimed costs of
      $2,927,580 for the six subgrantees tested;
      Related match of $1 12,351 (7%) of the total reported match of $1,660,475 for
      these six subgrantees; and
      Post service educational benefits of $92,065 that may have been earned by
      ineligible members who served at these subgrantees.

Administrative Program
       $362,550 (46%) of Federal claimed costs out of total Federal claimed costs of
       $792,375.
      Related match of $352,148 (47%) of the total reported match of $752,554.

Program Development and Training (PDAT) Program
      $69,270 (20%) of Federal claimed costs out of total Federal claimed costs of
      $337,933.

In total, we questioned $780,999 (14%) of the claimed Federal and $464,499 (15%) of
the related match amounts for all grants administered by the Commission during the audit
period.

The majority of the questioned costs were due either to inadequate guidance in
interpreting the ArneriCorps compliance requirements related to eligibility or the inability
of the Commission to provide supporting documentation that complied with grant
provisions.

Prior to the issuance of Federal Register, volume 64, No. 132, dated July 12, 1999, the
Commission and its subgrantees did not have specific guidance from the Corporation on
the types of documentation required to verify citizenship eligibility of AmeriCorps
members. The majority of the subgrantees that we audited maintained an 1-9 form issued
by the U.S. Immigration and Naturalization Service along with documents to support
employment verification (e.g., social security card and driver's license) rather than to
support citizenshiplresident eligibility (e.g., birth certificate, passport, and green card).
As such, our Report on Compliance identified significant questioned costs related to
noncompliance with citizenship eligibility requirements. Of the above questioned costs,
$329,775 represents amounts resulting from lack of documentation to support citizenship
eligibility requirements.
OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
defines the requirements for documentation for personnel compensation and payroll.
During the period October 1998 through September 2001, the Commission's support for
personnel compensation claimed under the Administrative and PDAT programs did not
meet the requirements. Specifically, staff salaries and wages were not supported by
timesheets or periodic certifications that confirmed that the employees worked solely on
Federal programs during the period indicated. Of the above questioned costs, $43 1,820 is
questioned due to lack of adequate documentation to support such compensation.

Financial and program records of a Commission subgrantee, Family Healthcare of
Alabama, were unavailable for audit purposes due to an on-going government
investigation of the entity. As a result, we were unable to audit the costs claimed for
program years 1997-98 through 2000-01. The total Corporation and match costs claimed
amounted to $1,071,745. Some or all of the costs incurred by Family Healthcare of
Alabama may be questioned or disallowed as a result of the investigation. However, the
types of findings that might result from the investigation could be entirely different from
any questioned costs that might have been identified using the procedures in this Audit's
lncurred Cost Guide.

BACKGROUND

The Corporation, pursuant to the authority of the National and Community Service Act of
1990, as amended, awards grants and cooperative agreements to State Commissions,
nonprofit entities and tribes and territories to assist in the creation of full and part time
national and community service programs. State Commissions are prohibited from
directly operating national service programs. State Commissions provide ArneriCorps
funding to approved applicants for service programs within their states and are
responsible for monitoring subgrantees' compliance with grant requirements. These
awards provide funding for AmeriCorps members to perform service to meet educational,
human, environmental, and public safety needs throughout the nation. In return for their
service, eligible members may receive a living allowance and post service educational
benefits.

The Alabama Governor's Office on National and Community Service (the Commission)
is located in Montgomery, Alabama. The Commission has received ArneriCorps grant
funds since program year 1994-95, Administrative grants since program year 1994, and
PDAT grants since program year 1995. It has also received Promise Fellow grants since
1996; however, these funds were not subject to our audit procedures since the funds
awarded during our audit period were only $165,000, which is not material in relation to
the total funds awarded. Receipt and disbursement of grant funds are accounted for in
Alabama's general ledger system. Beginning March 2001, the Alabama Department of
Economic and Community Affairs (ADECA) is responsible for the Commission's fiscal
administration duties. Prior to March 2001, these duties were handled by the
Commission itself, except for the period between July 1999 through December 1999
when ADECA was responsible.
Four of the seven subgrantees that we selected for detailed audit work currently continue
to receive Corporation funds. They are Butler County Board of Education, Calhoun
Community College, Cooper Green Hospital, and the University of Alabama at
Birmingham. The various compliance issues identified in relation to all subgrantees
indicate that the Commission needs to provide more guidance to its subgrantees on record
retention and documentation standards for such items as eligibility, time sheets, member
service hours, AmeriCorps roster updates on member status, and other claimed costs
submitted for reimbursement and matching costs reported.

The following sections comprise our report on the Schedules of Award Costs, our
consideration of the Commission's internal controls over financial reporting, our tests of
the Commission's compliance with certain provisions of applicable laws, regulations, and
the provisions of the Corporation's grant awards, and the Commission's and our
responsibilities.

REPORT ON THE SCHEDULES OF AWARD COSTS

We were engaged to audit the accompanying AmeriCorps Consolidated, Administrative,
and Program Development and Training, and Promise Fellow Schedules of Award Costs
(Exhibits A through D) for the Alabama Governor's Office on National and Community
Service, a grantee of the Corporation for National and Community Service, for the
awards, award periods, and audit periods listed below:

   Program              Award Number       Award Period            Audit Period

   AmeriCorps           94ASCALOOl         8/1/94 - 12131/00       10/1/97 - 12/31/00
                        OOASFALOO1         9/ 1/00 - 9/30/02       9/1/00 - 12/31/01
                        OOASCALOO1         10/1/00 - 6/30/02       10/1/00 - 12/31/01

   Administrative       94SCSTAL002 12/29/93- 12131/00              1/1/97 - 12131/00
                        01SCSAL002  1/1/01 - 12/31/01               1/1/01 - 12/31/01

   PDAT                 95PDSAL002         1/1/95 - 12/31/01        1/1/97 - 12/31/01

   Promise Fellow       98APSALOOl         11/1/98 - 12131/99       Unaudited

As discussed in our Report on Internal Control over Financial Reporting and our Report
on Compliance, the Commission did not have an adequate system in place during the
periods under audit, to monitor the financial and programmatic activities of its
subgrantees. Additionally, certain of the Commission's subgrantees did not maintain
adequate accounting records and/or AmeriCorps program files, and adequate evidential
matter in support of recorded transactions was not available in all cases. As a result, we
noted noncompliance exceptions resulting in questioned costs, which are material to the
Schedules of Award Costs.
Further, there were several changes in Commission and subgrantee employees and key
management personnel during the period under audit, and some subgrantees no longer
participate in or administer the ArneriCorps Program. As a result, present management
of both the Commission and its subgrantees were unable to furnish us with
knowledgeable representation of facts and circumstances regarding certain transactions
arising during the period under audit. It was impracticable to extend our procedures
sufficiently to determine the extent to which the Schedules of Award Costs may have
been affected by the foregoing conditions.

Since the Family Healthcare of Alabama's financial and program records were not
available for audit purposes due to an on-going investigation, we were unable to
determine the allowability of the costs claimed for program years 1997-98 through
2000-01. The total Corporation and match costs claimed amounted to $1,071,745.

Because of the matters discussed in the three preceding paragraphs, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the
accompanying ArneriCorps Consolidated, Administrative, and Program Development
and Training Schedules of Award Costs.

The Schedules of Award Costs for each subgrantee (Exhibits E-1 through E-10) are
presented for additional analysis of the ArneriCorps Consolidated Schedule of Award
Costs (Exhibit A) rather than to present the costs incurred by the individual subgrantees.
Because of the matters discussed in the second and third preceding paragraphs, the scope
of our work was not sufficient to enable us to express, and we do not express, an opinion
on this information.
                                                                                         Exhibit A


              Alabama Governor's Office on National and Community Service
                                      ArneriCorps
                         Consolidated Schedule of Award Costs
                      From October 1. 1997 to December 31,2001


                                         Approved         Claimed           Questioned
Cost Cate~orv                             Budget           Costs              Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
   Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation:

Administration:

Costs claimed exceeded maximum
match percentage
PER * exceeds General Ledger

Total Corporation Funds

Total Matching Funds

Total Funds

* Periodic Expenditure Report
                                                                             Exhibit B


         Alabama Governor's Office on National and Community Service
                               Administrative
                         Schedule of Award Costs
                 From January 1, 1997 to December 3 1,200 1


                                Approved           Claimed     Questioned
Cost Category                    Budget             Costs        Costs

Personnel                       $   586,427    $    547,402    $   362,550

Travel                              145,488          88,547              -




Operating Costs                     101,844          141,676             -

Other Costs                           1,852            1,823             -

Unified State Plan                    6,000            4,984             -

Total Corporation Funds             849,134         792,375        362,550

Total Matching Funds                885,557         752,554        352,148

Total Funds
                                                                       Exhibit C


     Alabama Governor's Office on National and Community Service
             Program Development and Training (PDAT)
                     Schedule of Award Costs
             From January 1, 1997 to December 3 1,2001


                              Approved      Claimed      Questioned
Cost Category                  Budget        Costs         Costs

Commission Staff              $   76,850    $ 80,175     $   69,270

Program Staff Development         27,250       26,938              -

Consultants                       27,193       25,647              -

Training                          193,550     191,513              -




Communication                      3,150        2,5 14             -


Supplies                           10,904      10,053              -

Other

Total Corporation Funds       $ 340,947     $ 337,933    $   69,270
                                                                        Exhibit D


      Alabama Governor's Office on National and Community Service
                            Promise Fellow
                 Schedule of Award Costs (unaudited)
             From November 1,1998 to December 3 1,1999



                               Approved       Claimed      Questioned
Cost Category                   Budget         Costs         Costs

Total Corporation Funds       $   165,000    $ 165,000     $        -
            Alabama Governor's Office on National and Community Service
                        Notes to Schedules of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Schedules of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, Program Development and Training
(PDAT), and Promise Fellow grants awarded to the Alabama Governor's Office on
National and Community Service (herein referred to as the Commission) by the
Corporation for National and Community Service (Corporation) for the period January 1,
1997 through December 3 1,2001.

The Commission subsequently awards its grant funds to numerous subgrantees that
administer the AmeriCorps program and report financial and programmatic results to the
Commission.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedules has been prepared from the reports submitted by the
Commission to the Corporation and the accounting records of the Commission and its
subgrantees. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedules of Award Costs include the cost of equipment purchased
during the period rather than a provision for depreciation. The equipment acquired is
owned by the Commission while used in the program for which it was purchased or in
other future authorized programs. However, the Corporation has a reversionary interest
in the equipment. Its disposition, as well as the ownership of any proceeds therefrom, is
subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense when purchased.
Questioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations or specific conditions of the awards, or
those costs which require additional support by the grantee or which require
interpretation of allowability by the Corporation. Certain amounts included in questioned
member support costs are based on estimates. Questioned costs included on the
accompanying Schedules do not include potentially disallowed post-service educational
benefits related to ineligible members. Such additional questioned costs amount to
$92,065.

A detailed reconciliation of amounts identified as questioned costs in the Report on
Compliance to those reflected on Exhibits A through D is presented in notes 2A and 2B.
                                           Alabama Governor's Office on National and Community Service
                                               Note 2.A. Summary of Questioned Costs - AmeriCorps




                                           Consolidated Full                   Birmingham
                                            Scope Audit -                      Cultural and       Calhoun                        University of
                                             AmeriCorps         Birmingham      Heritage         Community       Cooper Green    Alabama at
                 Finding                     Subgrantees       AIDS Outreach   Foundation         College          Hospital      Birmingham
Questioned Claimed Costs
Lack of Documentation:
   * Eligibility Requirements
   * Documentation to suppott selected
   payments claimed under the
   subgrants was not maintained,
   allocable to the program, or properly
   approved

Expenses claimed per the Periodic
Expenditure Report did not agree with
expenses recorded in the general ledger

Member stipends paid at incorrect
amounts
Administrative costs in excess of the
maximum Corporation share

Matching requirements were not met

Member healthcare costs were based on
estimates and duplicated
    Subtotal

Questioned Match
Lack of Documentation:
   * Eligibility Requirements

Member stipends paid at incorrect
amounts
Match amounts claimed are not properly
supported, necessary and reasonable,
properly valued, or allocable to the
PW
 ='"'
Member healthcare costs were based on
estimates and duplicated
    Subtotal
                                 Total


Questioned Education Awards
Lack of Documentation:
   * Eligibility Requirements              -
                                           $
                                            -        92,065      $    23,681    $     25,184     $           -    $      4,725     $   38,475

                                                                                               (Continued)
                     Alabama Governor's Office on National and Community Service
                   Note 2.B. Summary of Questioned Costs - Administrative and PDAT




                                          Consolidated Full
                                            Scope Audit -
                                          Commission Level       Administrative
              Finding                          Grants               Grant            PDAT Grant
Questioned Claimed Costs

Inadequate documentation to support
compensation of personnel services        $        43 1,820
Subtotal                                           431,820

Questioned Match

Inadequate documentation to support
compensation of personnel services                 343,184
Matching contributions were not
adequately supported                                 8,964
Subtotal                                           352,148
                                  Total   $        783,968
REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

We noted certain matters, described below, involving internal controls over financial
reporting that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. We believe the reportable condition
identified as item 1 below is a material weakness. These conditions were considered in
determining the nature, timing, and extent of the procedures to be performed in our audit
of the Commission's Schedules of Award Costs.

Our consideration of internal controls would not necessarily disclose all matters in
internal controls over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
controls, that, in our judgment, could adversely affect the Commission's ability to record,
process, summarize, and report financial data consistent with assertions of management
in the Schedules.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control structure elements does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial
schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may occur and
not be detected.

The objective of our audit was not to provide assurance on the Commission's and its
subgrantees' internal controls over financial reporting. Consequently, we do not provide
an opinion on internal control over financial reporting.

The following paragraphs present the reportable conditions identified during our incurred
cost audit of the Schedules of Award Costs and the unresolved reportable conditions that
were identified during a pre-audit survey conducted in 2000. A more detailed summary
of the status of reportable conditions as first reported in OIG Audit Report Number 01-
20', Pre-Audit Survey of the Alabama State Commission on National and Community
Service issued on February 2,2001, is presented as Exhibit F.

Material Weakness

1. Grants and Program Management

The Alabama Governor's Office on National and Community Service is responsible for
evaluating whether its subgrantees comply with legal, reporting, financial management

' For additional information, including the responses by the Commission and the Corporation, see OIG
Audit Report Number 01-20; Pre-Audit Survey of the Alabama State Commission on National and
Community Service, issued by the Corporation OIG.
and grant requirements and ensuring corrective actions are taken on issues of
noncompliance. For most of the period audited, the Commission lacked a comprehensive
program to monitor the programmatic activity of all subgrantees to ensure that adequate
attention was given to compliance issues and documentation was retained as evidence of
compliance. We also noted that the Commission had experienced significant personnel
turnover. As a result, we identified control weaknesses and instances of noncompliance
as reported in the Report on Compliance, some of which resulted in questioned costs.

We obtained the AmeriCorps member rosters from the Corporation's National Service
Trust database for the individual program years for each of the seven subgrantees
selected for audit in order to select member files for testing. The following subgrantee
rosters (obtained from the Corporation and represented to us as current) for the respective
program year did not appear accurate or complete, or had not been properly updated.

 Subgrantee                     Program Year       Exception
 Birmingham AIDS                                   2 members reflected as "active"
 Outreach                                          even though the subgrantee ceased
                                                   to operate the program in December
                                                   2000.

                                98-99 and 99-00 Hours per the subgrantee's records
                                                did not agree with the hours
                                                reflected on the Corporation's
                                                Member Roster for 5 members.

 Cooper Green Hospital                             6 members listed on subgrantee's
                                                   member roster but not the
                                                   Corporation's Member Roster.

 Calhoun Community              98-99 and 00-01 Hours per the subgrantee's records
 College                                        did not agree with the hours
                                                reflected on the Corporation's
                                                Member Roster for 3 members.

The Corporation relies on the Commission and its subgrantees to maintain systems and
management controls that provide accurate member service information to the National
Service Trust. The noncompliance issues related to member status identified above and
in the Report on Compliance indicate that the Commission needs to take more
responsibility for the accuracy and completeness of member status reporting by its
subgrantees. In addition, failure to provide accurate member information to the
Corporation could result in erroneous education awards being issued and undermines the
reliability of certain of the Corporation's GPRA statistics.

Further, during our audit of individual subgrantees, we identified the following internal
control deficiencies, which indicate the Commission is not adequately monitoring its
subgrantees:
       Financial Status Reports, Progress Reports, and member status forms were not
       submitted timely, properly completed, appropriately signed, or dated in certain
       instances for all subgrantees audited.

       Vendor invoices, primarily related to staff benefits, were not always appropriately
       approved by the Program Director at the Birmingham Cultural and Heritage
       Foundation.

       Cooper Green Hospital does not have a procedure to account for in-kind
       contributions, including a donor signed voucher for the goods and services provided.

       Cooper Green Hospital used healthcare benefits estimates to claim costs from the
       Corporation rather than actual healthcare costs incurred.

       Birmingham AIDS Outreach lacked adequate segregation of duties.

       The University of Alabama at Birmingham failed to stamp invoices as paid upon
       payment in order to prevent their resubmission.

    We recommend that the Commission take the following actions to improve its grants and
    program management processes:

         Complete the implementation of the recently developed policies and procedures to
         monitor the programmatic and financial activity of all subgrantees.
         Ensure adequate attention is given to compliance issues that may not be addressed,
         even if a Single Audit in accordance with OMB Circular A-133, Audits of States,
         Local Governments and Non-Profit Organizations, has been performed for any
         specific subgrantee.
         Ensure that current subgrantees establish procedures to adequately segregate
         financial duties, to ensure that expenses incurred are accurately reported to the
         Commission, and vouchers are cancelled timely.
         Conduct site visits as frequently as necessary based on the Commission's
         assessment of the risk associated with a particular grantee; during such site visits,
         ensure that the subgrantee is complying with revised Commission policies and
         procedures and is adequately implementing recommended corrective actions to
         resolve identified deficiencies.

    Reportable Condition

    2. Financial Management and Reporting

    The Commission is required to select organizations for award, administer Corporation
    grant funds and monitor subgrantees for financial activities and compliance with laws,
    regulations and provisions of grant awards. The Corporation's regulations describe
'
    standards for financial management systems that Commissions must maintain. OMB
Circulars also establish standards for monitoring, compliance oversight, record retention,
documentation and allowable costs.

As noted above and in Exhibit F, our pre-audit survey procedures revealed that the
Commission had minimal controls in place to provide reasonable assurance that
subgrantee funds were administered according to Corporation and Federal guidelines, and
inadequate procedures for maintaining internal controls that provide accurate, current,
and complete disclosure of financial and programmatic results.

Many of the weaknesses identified at the Commission during the pre-audit survey were
substantiated by exceptions identified for individual subgrantees that resulted in
questioned costs. Subsequent to the pre-audit survey, the Commission has worked to
develop, and is still developing, formal procedures to improve controls and ensure
compliance with all applicable regulations.

However, the following conditions continue to exist and require corrective action.

       Untimely receipt of subgrantee Financial Status Reports (FSRs) and Progress
       Reports.
       Lack of review of FSRs submitted by the subgrantees for accuracy or agreement
       with the subgrantees' accounting system.
       Lack of review of Commission-level FSRs by the Commission's program office
       prior to their transmittal to the Corporation.

Further, during the incurred cost audit, we found that the Commission lacked procedures
to perform comparisons of budget to actual expenditures on a regular basis.

We recommend that the Commission continue to emphasize the implementation of its
recently developed set of policies and procedures for all Corporation grants. Such
emphasis will help to ensure that day-to-day procedures are performed accurately and
consistently, thus minimizing the risk of Corporation funds being improperly disbursed.

We also recommend the Corporation follow up with the Commission to ensure adequate
corrective action is taken on the unresolved pre-audit survey findings and on the
additional matters discussed above.

REPORT ON COMPLIANCE

The results of our tests of compliance disclosed instances of noncompliance and related
questioned costs as reflected in Exhibits A through D, for which the ultimate resolution
cannot presently be determined. It is the responsibility of the Corporation to determine
whether the questioned costs are allowed or disallowed. Questioned costs identified were
developed using either actual costs (in those instances where actual costs were provided
by the Commission and its subgrantees) or estimated costs (in those instances where
actual costs were not readily available).
AmeriCorps Grant

A. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned for the findings discussed below are included in the
Schedules of Award Costs by subgrantee at Exhibits E-1 through E-6, and in the
Summary of Questioned Costs (see Note 2 to the Consolidated Schedule of Award Costs
on pages 12 - 13). This Note reconciles the amounts identified as questioned costs in the
following paragraphs to the consolidated questioned costs in Exhibit A.

1. Lack of documentation

       a. Eligibility requirements were not met (Questioned Claimed Costs of $329,775,
          Questioned Match Amounts of $57,717, and Questioned Education Awards of
          $92,065).

The following subgrantees did not maintain sufficient documentation to verify that
members met eligibility requirements. AmeriCorps Provisions state, in part, that "the
Grantee must maintain verifiable records which document each member's eligibility to
serve based upon citizenship or lawful permanent residency, birth date, level of
educational attainment, date of high school diploma or equivalent certificate (if
attained)...If a member does not have a high school diploma or its equivalent at the time
of enrollment, the Grantee must maintain a record of the member's elementary or high
school drop-out date, the member's written agreement to obtain a high school diploma or
its equivalent before using the education award, and, if applicable, verification of the
member's enrollment at an institution of higher education.. ."

Subgrantee                                  Occurrence/       Applicable Program
                                            Sample Size               Years
Lacking Documentation For: Citizenship or lawful permanent residency
Birmingham AIDS Outreach                    11 of 16          97-98 through 99-00
University of Alabama at Birmingham         11 of 15          98-99 through 00-01
Cooper Green Hospital                       15 of 23          98-99 through 00-01
Birmingham Cultural and Heritage            8 of 10           97-98 and 98-99
Foundation                                    I                  I

Calhoun Community College                 13of 16           1 98-99 through 00-01
Lacking Documentation For: High school diploma
Cooper Green Hospital                    ( 16 of 23              1 98-99 through 00-01
We have questioned member costs, i.e., living allowances and benefits claimed for
member files without required eligibility documentation. Correspondingly, we have
questioned the amount of education awards earned by these members.
       b. Documentation to support selectedpayments claimed under the subgrants was
          not maintained, allocable to the program, or properly approved by the
          Program Director (Questioned Claimed Cost of $2,5 73).

AmeriCorps Provisions state that subgrantees must maintain adequate supporting
documents for every expenditure (Federal and non-Federal) and in-kind contributions
made under this grant. Costs must be shown in books or records (e.g. a disbursement
ledger or journal) and must be supported by a source document, such as a receipt, travel
voucher, invoice, bill, in-kind voucher, or similar document.

The following subgrantees were unable to provide documentation that supported the
existence and/or reasonableness of selected payments claimed for reimbursement from
the Commission.

Birmingham AIDS Outreach

  Category of Cost      I           PayeeIDescription            I   Amount       I   Program     1
                                                                                        year
Other Operating           Mathematical error on the Periodic         $ 750             99-00
                          Ex~enditureR e ~ o r t
Salaries and Benefits     P. Kellar and P. Holland                   $ 176             99-00
Salaries and Benefits     FICA for staff                             $   37            97-98
Salaries and Benefits     Unemployment for staff                     $ 161            All years
Member Healthcare         Allianz Life                               $ 262             98-99
Member Healthcare       I Allianz Life                           1   $ 131        1    98-99      1
Birmingham Cultural and Heritage Foundation

  Category of Cost

Member Healthcare           Allianz Life
                                                                     7
                                                                     Amount           Program

                                                                                      97-98 and
                                                                                        98-99
Member Healthcare           Allianz Life                                                97-98
Training and                Cardiopulmonary Resuscitation   +        $ 170    *         97-98
Education
Salaries and Benefits       United Healthcare of AL and United
                            Concordia (Jan 98)
Salaries and Benefits       United Healthcare of AL and United
                            Concordia (Jan 00)
Salaries and Benefits       United Healthcare of AL and United
                            Concordia (Nov 97)
Salaries and Benefits       United Healthcare of AL (Feb 98)
Salaries and Benefits       United Concordia (Aug 98 dental
                            insurance)
    * We have not questioned these costs because the only missing documentation was the
    Program Director's signature as approval for these invoices.

    Calhoun Community College

I       Category of Cost    I                  Payee                I    Amount         I   Program   1
                                                                                             Year
    Member Healthcare           Jefferson Outpatient Care            $ 65                    99-00
( Member Healthcare         I Jefferson Outpatient Care             I$l89               1    00-01

    University of Alabama at Birmingham

/       Category of Cost    I                  Payee                /   Amount      1   Program   1
                                                                                          Year
    Member Healthcare           Jefferson Outpatient Care               $ 82   **        99-00

    ** The questioned cost is for one member even though we noted exceptions for two.
    However, the healthcare costs for the second member have already been questioned as a
    result of the lack of documentation to support citizenship eligibility.

    2. Expenses claimedper the Periodic Expenditure Report did not agree with expenses
       recorded in the general ledger (Questioned Claimed Costs of $689)

    The AmeriCorps Provisions state that subgrantees must maintain adequate supporting
    documents for every expenditure (Federal and non-Federal) and in-kind contributions
    made under this grant. Costs must be shown in books or records (e.g., a disbursement
    ledger or journal), and must be supported by a source document, such as a receipt, travel
    voucher, invoice, bill, in-kind voucher, or similar document.

    Subgrantees must maintain financial management systems that include standard
    accounting practices, sufficient internal controls, a clear audit trail and written cost
    allocation procedures as necessary. Financial management systems must be capable of
    distinguishing expenditures attributable to a grant from expenditures not attributable to a
    grant. This system must be able to identify costs by programmatic year and by budget
    category and to differentiate between direct and indirect costs or administrative costs.
    Subgrantees' financial management responsibilities are detailed further in OMB Circular
    A-1 10, Uniform Administrative Requirements for Grants and Agreements with
    Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, and its
    implementing regulations.

    University of Alabama at Birmingham

    Amounts reported and claimed on the Periodic Expenditure Report, also known as the
    drawdown request, for program year 2000-01 for staff salaries and related FICA did not
    agree with amounts recorded in the general ledger. The salary costs exceeded the
    amounts in the general ledger and the FICA costs were less than the amounts in the
general ledger. We have questioned the net effect ($689) of these discrepancies
representing costs claimed in excess of what was recorded in the general ledger.

Birmingham Cultural and Heritage Foundation

The total amount recorded in the general ledger for program year 1997-98 exceeded the
amount reported and claimed on the Periodic Expenditure Report by $2,362. The
subgrantee could not explain the difference. We have not questioned this amount since
the amount was not claimed.

3. Member stipends paid at incorrect amounts (Questioned Claimed Costs of $1 59 and
   Questioned Match Costs of $28)

According to the AmeriCorps Provisions, subgrantees must provide a living allowance to
full-time members within a specified range. Provisions further state that the living
allowance is designed to help members meet the necessary living expenses incurred while
participating in the AmeriCorps program and that the living allowance should be paid in
increments, such as weekly or bi-weekly. As such, programs must establish and
                                                    -   -


implement controls to ensure that members receive the proper stipend amount based on
their length of service.

The following subgrantees paid members incorrect living allowances. Amounts overpaid
by Birmingham Cultural and Heritage Foundation are recognized as questioned costs.

Subgrantee                      I Total Members I      Total     I      Total      I Program
                                    Under or          Amount           Amount       year
                                    Overpaid        Overpaid *       Underpaid *
Birmingham AIDS Outreach               3            $242 **          $ 90           97-98 and
                                                                                    99-00
Birmingham Cultural and                  4          $187             $431           98-98
Heritage Foundation
Calhoun Community College                2          N/A              $748           98-99 and
                                                                                    00-0 1

*   Amounts exclude the associated FICA.

** There are no associated questioned costs related to these members since member
support costs for these members have already been questioned due to inadequate
documentation to determine citizenship or permanent resident eligibility.

4. Administrative costs in excess of the maximum Corporation share were claimed
   (Questioned Claimed Costs of $12,022).

The ArneriCorps Provisions indicate that administrative costs cannot exceed 5 percent of
total Corporation funds actually expended under the award.
 The following subgrantees claimed administrative costs in excess of this maximum
 percentage as a result of questioned/claimed costs in the administrative cost base
 (Corporation funds actually expended):

I Subgrantee                                   Amount              Applicable Program        I
                                                                          Years
 Birmingham AIDS Outreach                       $ 3,034                 All years
 Birmingham Cultural and Heritage               $2,841                  All years
 Foundation
 Calhoun Community College                      $    27                  All years
 Cooper Green Hospital                          $ 1,450                  All years
 University of Alabama at                       $4,670                   All years
 Birmingham

 5. Matching requirements were not met (Questioned Claimed Costs of $3,721).

 According to the AmeriCorps Provisions, the subgrantee must provide, at a minimum, the
 following aggregate matches:

   i. member support costs of 15% - including living allowance, FICA, unemployment
      insurance, worker's compensation and healthcare; and
  ii. program operating costs of 33% - including other member costs, staff, operating
      costs, internal evaluation and administration.

 The maximum the University of Alabama at Birmingham should have claimed using
 Corporation funds for member support would be 85 percent. However, in program year
 2000-01, it claimed 88 percent. We questioned the difference of $3,721.

 6. Amounts claimed as match are not properly supported, necessary and reasonable,
 properly valued, or allocable to the program (Questioned Match of $32,129).

 AmeriCorps Provisions state that subgrantees must maintain adequate supporting
 documentation for every expenditure (Federal and non-Federal) and in-kind contributions
 made under this grant. Costs must be shown in books or records (e.g. a disbursement
 ledger or journal), and must be supported by a source document, such as a receipt, travel
 voucher, invoice, bill, in-kind voucher, or similar document.

 In addition, the ArneriCorps Provisions stipulate that contributions, including cash and
 third party in-kind, will be accepted as part of the grantee's matching share for Program
 Operating Costs when such contributions meet all of the following criteria:
     i. They are verifiable from Grantee records;
    ..
    11.
   ...    They are not included as contributions for any other federally-assisted program;
   111.   They are necessary and reasonable for the proper and efficient accomplishment
          of program objectives; and
   iv. They are allowable under applicable cost principles.
    Further, as indicated in the AmeriCorps Provisions, the value of grantee contributions of
    services and property will be determined in accordance with applicable cost principles set
    forth in OMB Circulars A-21, A-87, and A-122, and the approved budget.

    The following subgrantees lacked documentation to support the existence andlor
    reasonableness of the following match amounts claimed:

    Birmingham AIDS Outreach

I     Category of Cost      I              Payee/Donor               I   Amount      I   Program
                                                                                           Year
    Training and                Mathematical error on the Periodic       $ 1,334          99-00
    Education                   Expenditure Report
    Other Member                Mathematical error on the Periodlc       $2 1,029         99-00
                                Expenditure Report
    Training and                University of Alabama at                 $    250         98-99
    Education                   Birmingham 1917 Clinic
    Training and                Birmingham AIDS Outreach                 $ 4,500          99-00
    Education
    Training and
    Education
                                UAB Civilian International
                                Research Center
                                                                     I$       400    1    99-00

    Other Operating             Pitney Bowes                             $    113         99-00
    Training and                A1 Psychotherapy and Wellness            $    100         98-99
    Education                   Center
    Other Operating             Associated Data Services                 $ 1,351          99-00
    Other Ooerating             Birmingham News                          $     114        99-00
    Other Operating             Birmingham News                          $     316        99-00
    Other O~erating:            Newcourt Financial                       $   1.359        99-00
    Salaries and Benefits       P. Kellar and P. Holland                 $     335        99-00
    Salaries and Benefits       FICA for staff                           $      46        97-98
    Salaries and Benefits       Unemployment for staff                   $     327       All years
    Member Healthcare           Allianz Life                             $      46        98-99
    Member Healthcare           Allianz Life                             $      23        98-99

    Birmingham Cultural and Heritage Foundation

       Category of Cost                        Payee                      Amount         Program
                                                                                           Year
I Training and              I Michael Levine                         1 $300          1    97-98
    Education
    Member Healthcare           Allianz Life                             $104            97-98 and

[ Member Healthcare          I Allianz Life                          1$      23      1    97/98      1
    Calhoun Community College

1     Category of Cost                       Payee

    Member Healthcare        Allianz Life                            $12             99-00
    Member Healthcare        Allianz Life                            $33             00-0 1

    University of Alabama at Birmingham

      Category of Cost                       Payee                    Amount       Program
                                                                                     Year
    Member Healthcare        Jefferson Outpatient Care               $14   **       99-00

    ** The questioned cost is for one member even though we noted exceptions for two.
    However, the healthcare costs for the second member have already been questioned as a
    result of the lack of documentation to support citizenship eligibility.

    Cooper Green Hospital

    The Cooper Green Hospital's procedures to account for in-kind contributions does not
    include obtaining a donor signed voucher for the goods and services provided. We had to
    review alternative documentation to assess the validity and reasonableness of the match
    amounts reported. Further, the subgrantee records the in-kind contributions on a
    periodic basis, e.g., quarterly or annually, as opposed to recording the amounts when the
    goods or services are provided. This practice increases the risk that all in-kind donations
    may not properly be recorded and inadequate documentation may result in questioned
    costs.

    7. Member healthcare costs were based on estimates and claimed twice (Questioned
       Claimed Costs of $240 and Questioned Match Amounts of $22,717).

    The Cooper Green Hospital provides healthcare to its AmeriCorps members. In order to
    place a value on the services provided, the subgrantee computes an estimate, on a
    quarterly basis, based on the number of hours served by each member. The estimated
    amount is then reported as match. The subgrantee has the ability to determine the actual
    healthcare amounts incurred on behalf of the members are available to the subgrantee.
    These amounts are not compared with the estimated amounts previously reported,
    resulting in estimated amounts exceeding the actual amounts by approximately $5,900.
    We have not questioned this match amount, since we have already questioned member
    healthcare costs due to lack of documentation for citizenship eligibility.

    However, we note that the subgrantee reported the estimated amount as match and also
    claimed the actual costs. Since this resulted in duplication of claimed costs, we have
    questioned the following claimed and match amounts.
    Budget Line Item                        Amount                     Program Year
    Other Operating Costs                    $7,008                        98-99
    Other Member Costs                       $8,121                        99-00
    Other Member Costs                       $7,588                        00-01

    B. Other Compliance Findings

    8.   Lack of documentation

           a. Criminal background check

    The following subgrantees enrolled members who require a criminal background check;
    however, sufficient documentation to support that a criminal background check was
    conducted was not maintained. The AmeriCorps Provisions require that programs with
    members or employees who have substantial contact with children (as defined by state
    law) or who perform service in the homes of children or individuals considered
    vulnerable by the program shall, to the extent permitted by state and local law, conduct
    criminal record checks. The Provisions require that this documentation be maintained
    within member or employee files.

I Subgrantee                               I Occurrence1      I Applicable Program Years I
                                           I Sample Size
    Lacking Documentation For: Criminal Background Check
    Cooper Green Hospital                  4 of 23                         99-00
1   Calhoun Community College              1 of 23                         99-00

            b. Member contracts

    AmeriCorps Provisions require that the subgrantee must ensure that all members sign
    contracts that, at a minimum, stipulated the following:

                   The minimum number of service hours and other requirements (as
                   developed by the program) necessary to successfully complete the term of
                   service and to be eligible for the education award;
                   Acceptable conduct;
                   Prohibited activities;
                   Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
                   Suspension and termination rules;
                   The specific circumstances under which a member may be released for
                   cause;
                   The position description;
                   Grievance procedures; and
                   Other program requirements.
The following subgrantees did not maintain documentation to support that members had
signed such contracts.

               Subgrantee                    I Occurrence/      I   Applicable Program    I
                                             1
                                      Sample Size                          Years
Lacking. Documentation For: Simed Member Contracts
Birmingham AIDS Outreach                   1 of 16                        99-00
C o o ~ e Green
          r     Hos~ital                   5 of 23                        99-00

Lacking Documentation For: Member Contracts that Include all Required Elements
University of Alabama at Birmingham        15 of 15          98-99 through 00-01
C o o ~ e Green
          r     Hos~ital                    1 of 23                 99-00

       c. Orientation

AmeriCorps Provisions require that, consistent with the approved budget, the subgrantee
must provide members with the training, skills, knowledge and supervision necessary to
perform the tasks required in their assigned project positions, including specific training
in a particular field and background information on the community served. The
subgrantee must conduct an orientation for members and comply with any pre-service
orientation or training required by the Corporation. This orientation should be designed to
enhance member security and sensitivity to the community. Orientation should cover
member rights and responsibilities, including the program's code of conduct, prohibited
activities, requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.),
suspension and termination from service, grievance procedures, sexual harassment, other
non-discrimination issues, and other topics as necessary.

Cooper Green Hospital did not maintain documentation to support that an orientation was
conducted for 5 out of 23 (program years 98-99 and 99-00) member files tested.

       d. Member start and end dates/Location of member's service

The University of Alabama at Birmingham did not maintain required documentation on
the identification of a member's location of service and project assignment for 2 of the 15
member files tested. AmeriCorps Provisions require that the subgrantee must maintain
verifiable records, which document each member's participation, start date and end date,
hours of service per week, location of service activities and project assignment.

        e. Mid-term and end-of term evaluations

The following subgrantees could not locate mid-term and end-of-term evaluations for
some members that were selected for review. ArneriCorps Provisions require that each
subgrantee must conduct at least a mid-term and end-of-term written evaluation of each
member's performance, focusing on such factors as:
   - Whether the member has completed the required number of hours;
   - Whether the member has satisfactorily completed assignments; and
   - Whether the member has met other performance criteria that were clearly
       communicated at the beginning of the term of service.

Subgrantee                        Occurrence/     Applicable Program Years
                                  Samnle Size
Lacking Documentation For: Mid-Term    End-of-Term Evaluations
Birmingham AIDS Outreach             12 of 16        97-98 through 99-00
Cooper Green Hospital                7 of 23           98-99 and 99-00

Lacking Documentation For: Mid-Term Evaluations
Butler Countv Board of Education I   15 of 20            I      97-98 through 00-01
Calhoun Community College             1 of 16                          98-99

Lacking Documentation For: End-of-Term Evaluations
Birmingham AIDS Outreach              2of 16                          99-00

      J: Enrollmentforms, change of status forms, exidend-of-term-of-serviceforms
The following subgrantees did not maintain or submit certain standard forms required to
be completed for members, did not adhere to the required timeframe for submission, or
did not properly record the required information. AmeriCorps Provisions require that the
following documents be completed:

   - Enrollment Forms. State Commissions and parent organizations must submit
     member enrollment forms to the Corporation no later than 30 days after a member
     is enrolled.
   - Change of Status Forms. State Commissions and parent organizations must
     submit member change of status forms to the Corporation no later than 30 days
     after a member's status is changed. By forwarding member change of status forms
     to the Corporation, State Commissions and parent organizations signal their
     approval of the change.
   - ExiVEnd-of-Term-of-Service      Forms. Programs must submit member exit/end-
     of-term-of-service forms to the Corporation no later than 30 days after a member
     exits the program or finishes hisher term of service early.

Subgrantee                         Occurrencel               Applicable Program Years
                                  Sample Size
Lacking Documentation For: Enrollment Form
C o o ~ eGreen
         r     Hos~ital                4 of 23                         99-00

Lacking Documentation For: Approval of Enrollment Form
Cooper Green Hospital                  3 of 23                         99-00
    Subgrantee                             I Occurrencel I Applicable Program Years
-                                   I S a m ~ l Size
                                                e      I
- Lacking Documentation For: ExitIEnd-of-Term     Form
-Cooper Green Hospital                     5 of 23          99-00 and 00-01
-Birmingham AIDS Outreach                    2 *                99-00
-
-Lacking Documentation For: Timely submission of Exit/End-of-Term Form
    University of Alabama at                     5 of 15              98-99 and 00-01
-
-
  Lacking Documentation For: Properly recorded information on Exit Form re: service
-hours andlor exit date
-Cooper Green Hospital                    9 of 23             98-99 and 99-00
  University of Alabama at                1 of 15                  00-0 1
- Birmin~ham

    * The two members were not included in our sample of members but were identified
    when we reviewed the Member Rosters maintained by the Corporation's National
    Service Trust. At the time of our fieldwork, both members were still reflected as "active"
    even though the subgrantee's program ceased operations by December 2000.

           g. Timesheets to support hours of service

    Under the AmeriCorps Provisions, the subgrantee must maintain verifiable records,
    which document each member's eligibility to serve based upon hours of service per
    week, among other criteria. The records must be sufficient to establish that the individual
    was eligible to participate in the Program and that the member successfully completed
    Program requirements with a minimum of 1,700 hours of participation as a full-time
    member, 900 hours of participation as a part-time member, or 300-900 hours of
    participation as a reduced part-time member.

    Further, AmeriCorps Provisions require that time and attendance records must be signed
    by both the member and by an individual with oversight responsibilities for the member.
    The member or employee's signature represents acknowledgement that the hours
    reported reflect an accurate depiction of the hours served. A supervisor's signature
    indicates approval of the hours recorded by the memberlemployee.

    The following subgrantees failed to maintain all or a portion of a member's timesheets to
    support the hours of service performed:

    Subgrantee                        Occurrence1                    Applicable Program
                                      Samde Size                           Years
    Lacking Documentation For: Member Timesheets
    Cooper Green Hospital                 5 of 23                            00-0 1
    Calhoun Cornmunitv College            1 of 16                            98-99
 No questioned costs relate to members without timesheets. Member support costs for
 these members have already been questioned due to inadequate documentation to
 determine program eligibility.

        h. Terminationfor compelling personal circumstances

 If a member is released from a program for compelling personal circumstances,
 AmeriCorps provisions state that the member is eligible for a pro-rated educational award
 based on the number of hours served, if it is at least 15% of the total required hours. The
 circumstances must be documented and retained in the member file. The following
 subgrantees had members who received partial education awards, however, the members'
 files lacked documentation to support the compelling personal circumstances:

I Subgrantee                             1 Occurrence/        1
                                                           Applicable Program                 I
                                         I Sample Size             Years
 Lacking Documentation For: Support for termination for compelling personal
 circumstances
 Birmingham AIDS Outreach                  2of 16       1     98-99 and 99-00
 University of Alabama at                  2of 15                   98-99
 Birmingham
 Butler County Board of Education          5of8               97-98 and 98-99
 Cooper Green Hospital                     2 of 23            99-00 and 00-01

 9. Financial Status Reports (FSRs)and Progress Reports

 According to the AmeriCorps Provisions, beginning in program year 1999-2000, FSRs
 are due May 1 for the period ending March 3 1 and October 3 1 for the period ending
 September 30. A grantee properly utilizing the Web-Based Reporting System (WBRS)
 meets financial reporting requirements when the grantee uses that system to submit
 reports within the approved time frames. A subgrantee must meet the submission
 deadlines set by the grantee for accurate and timely reporting. Prior to program year
 1999-2000, FSRs were due 30 days after the end of each calendar quarter.

 A subgrantee completing the final year of its grant must submit, in lieu of the last semi-
 annual FSR, a final FSR that is cumulative over the entire project period. This FSR is
 due within 90 days after the end of the project period.

 A grantee completing the final year of its grant must submit, in addition to the Progress
 Report due on October 3 1, a final Progress Report that is cumulative over the entire
 project period. This progress report is due within 90 days after the close of the grant.

 The AmeriCorps Provisions also require that each grantee set its own subgrantee
 reporting requirements consistent with its need for timely and accurate reports. As such,
 the Commission required its subgrantees to submit quarterly progress reports within 30
 days of the end of the calendar quarter.
Our review of the FSRs and progress reports at the selected subgrantees disclosed
numerous discrepancies in the preparation and submission of FSRs and Progress Reports.
The following summarizes the type of discrepancy and the occurrence for each
subgrantee:

Financial Status Reports:

 Subgrantee                                          Occurrence/Sample
                                                            Size
1 Lack of preparation of a cumulative FSR for a particular program
 year if the program year exceeded a 12-month period
 Birmingham AIDS Outreach                                  1of1
                                                 I

 Birmingham Cultural and Heritage Foundation I             lofl

 Improperly prepared FSR (including lack of date)
 Birmingham AIDS Outreach                                  1 of5
 University of Alabama at Birmingham                       3 of6
 Cooper Green Hospital                                     2of6
 Calhoun Community College                                 1of8

 Lack of preparation of a FSR based on submission requirements
 stipulated in the Cooperative Agreement
 Birmingham AIDS Outreach                               1 of 1

 Lack of submission of a final FSR
 University of Alabama at Birmingham                        1 of 1

Additionally, we were informed that Birmingham Public Schools, a subgrantee of the
Commission not audited by us, has not requested reimbursement for expenditures
incurred for program year 2000-2001. Another subgrantee whom we were unable to
audit due to an ongoing investigation, the Family Healthcare of Alabama, has not
requested reimbursement for expenditures incurred since July 2001. As a result, the
Commission could not provide complete program costs incurred by these subgrantees.
The Corporation holds grantees such as the Commission responsible for monitoring
subgrantee activities to ensure timely compliance with reimbursement requirements. The
Commission should have taken follow up action on these subgrantees to obtain the
respective FSRs. We recommend particular attention be paid to FSRs submitted by these
subgrantees to ensure their accuracy.
Progress Reports:


 Lack of retention of a Progress Report
 Cooper Green Hospital                                         1 of6

 Untimely submission of a Progress Report (including final)
 Butler Countv Board of Education                       1 of11

 Progress Report was not dated
 Cooper Green Hospital                                         5 of6
 Calhoun Community College                                     6of6
 University of Alabama at Birmingham                           5 of5

 Improper completion of a Progress Report
 Birmingham AIDS Outreach                                      1of4

 Final Progress Report was not cumulative
 University of Alabama at Birmingham                           1 of 1
 Cooper Green Hospital                                         lofl
 Calhoun Community College                                     1of1

 Lack of preparation of a Progress Report based on submission
 requirements stipulated in the Cooperative Agreement
 Birmingham AIDS Outreach                               1 of 1

 Lack of completion of a Progress Report for a particular program year
 if the program exceeded a 12-month period
 Birmingham Cultural and Heritage Foundation              1 of1
 Birmingham AIDS Outreach                                 1 of1

10. Lack of Adequate Internal Controls

According to the AmeriCorps Provisions, "The Grantee must maintain financial
management systems that include standard accounting practices, sufficient internal
controls, a clear audit trail and written cost allocation procedures as necessary."

We identified a lack of specific internal controls at the following subgrantees:

Birmingham AIDS Outreach

There does not appear to have been adequate segregation of duties; an authorized check
signer had access to petty cash; and the individual who prepared the bank reconciliation
also handled cash receipts and prepared checks. While we were unable to determine the
exact procedures in place during the grant period due to personnel changes, the same
deficient procedures may have been used throughout the grant period.

University of Alabama at Birmingham

No policy requires that invoices be stamped as paid to prevent their resubmission.

11. Minor disciplinary policy contradicts AmeriCorps Provisions.

Birmingham AIDS Outreach and Birmingham Cultural and Heritage Foundation's minor
disciplinary policy included in the member contract permitted suspended members to
receive a living allowance. Although we found no evidence that any suspended members
actually received a living allowance, the policy contradicts AmeriCorps Provisions.
While the AmeriCorps Provisions permit a grantee to temporarily suspend or impose a
fine on a member for minor disciplinary reasons, the provisions stipulate that "members
who are suspended for minor disciplinary reasons may not receive a living allowance for
the suspension period."

12. Grant advances were not limited to immediate cash needs

Birmingham AIDS Outreach

Grant advances were not limited to immediate cash needs. At the end of each program
year, Birmingham AIDS Outreach had what appeared to be excess Federal funds. After
the final grant close-out occurred in July 2001, the Commission determined that no
Federal funds were required to be returned. Excess funds received for program year
1996-97 were offset by expenditures not yet reimbursed for program year 1999-00, and
the excess Federal funds received for program year 1998-99 were offset by Commission
adjustments to the amounts claimed for program year 1998-99. The ArneriCorps
Provisions stipulate that the amount of grant advances requested by the subgrantee must
be based on actual and immediate cash needs in order to minimize Federal cash on hand
in accordance with Department of the Treasury policies.

Birmingham Cultural and Heritage Foundation

Birmingham Cultural and Heritage Foundation's grant advances were not limited to
immediate cash needs, interest earned on advances was not remitted timely, and excess
funds were not remitted timely. Specifically, our analysis disclosed that the first
advances for program years 1997-98 and 1998-99, and the final advance for program year
1997-98 were not limited to the subgrantee's immediate cash needs. As a result, interest
in excess of $250 was earned on the advanced funds and the interest was only remitted
after the final grant close-out with the Commission occurred in June 2001. In addition, at
the end of program year 1997-98, the subgrantee had what appeared to be excess funds.
When the Commission completed final grant close-out, the excess funds were netted, to
the extent possible, against the 1998-99 expenditures that had not yet been reimbursed.
During final grant close-out, which occurred in June 2001, the remaining excess funds
were returned to the Commission, and subsequently remitted to the Corporation. The
AmeriCorps Provisions stipulate that the amount of grant advances requested by the
subgrantee must be based on actual and immediate cash needs in order to minimize
Federal cash on hand in accordance with Department of the Treasury policies. The
AmeriCorps Provisions further stipulate that interest earned on advances in excess of
$250 must be remitted annually to the Department of Health and Human Services -
Payment Management System.

13. Program was not internally evaluated

Other than the results of a member survey that was conducted in May 2000 at the
Birmingham AIDS Outreach, we found no evidence that the program was internally
evaluated. The AmeriCorps Provisions stipulate that "the Grantee must track progress
toward achievement of their program objectives. The grantee must also monitor the
quality of service activities, the satisfaction of both service recipients and members, and
management effectiveness."

       Recommendations Related to the AmeriCorps Grant

Except as otherwise noted, for all compliance findings and questioned costs discussed
above, we recommend the following:

    The Corporation should follow up with the Commission to determine whether the
    questioned amounts should be disallowed and recovered.
    The Commission should provide additional guidance to existing subgrantees on
    record retention and documentation standards for such items as eligibility, time
    sheets, member service hours, AmeriCorps roster updates on member status, other
    claimed costs submitted for reimbursement, matching costs reported, and
    contributions received. The Commission should then verify subgrantee compliance
    with this guidance during periodic site visits.
    The Commission should require existing subgrantees to document and adhere to file
    maintenance procedures that will ensure compliance with the AmeriCorps Provisions.
    Procedures should include, where applicable, a checklist for all required
    documentation, a training program for personnel who are responsible for maintenance
    of member files, and a periodic review process where selected member files are
    checked for compliance with documented procedures. The Commission should then
    verify subgrantee compliance with these procedures during periodic site visits.
    The Commission should immediately contact the subgrantees that have not submitted
    reimbursement requests and inquire why they have not submitted such requests. The
    Commission should notify these subgrantees that they are in non-compliance with
    grant requirements.
    The Commission should enhance its policies and procedures for review of subgrantee
    member support and program operating matching requirements to ensure compliance.
    The Commission should assist subgrantees to develop and implement proper internal
    controls that would ensure (1) proper segregation of duties, (2) appropriate approvals,
    (3) timely submission and proper completion of forms and reporting documents, (4)
   maintenance of supporting documentation in compliance with the AmeriCorps
   Provisions, (5) accurate tracking and reporting of member service hours, and (6)
   proper payment of member stipends.
   The Commission should, in conjunction with the subgrantees, attempt to contact any
   member who received a reduced stipend in an amount less than the member was
   entitled and reimburse the member for any shortage.
   The Commission should ensure that subgrantees have implemented policies and
   procedures that are consistent with the AmeriCorps Provisions.

Administrative and Program Development and Training (PDAT) Grants

The following findings are a result of compliance audit work performed at the
Commission level for the Administrative and PDAT programs. A majority of the
questioned costs are due to the lack of supporting documentation. However, to the extent
that other records were available, we performed other tests of compliance as required by
the Audit Program for Full Scope Incurred Cost Audit of CorporationAwards with
Subrecipients. These findings are presented in the following paragraphs.

C. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned for the findings discussed below are included in the
Schedules of Award Costs at Exhibits B and C, and in the Summary of Questioned Costs
(see Note 2 to the Consolidated Schedule of Award Costs on pages 12 - 13). This note
reconciles the amounts identified as questioned costs in the following paragraphs to the
consolidated amounts of questioned costs in Exhibits B and C.

I . Inadequate documentation to support compensationfor personnel services
    (Questioned Claimed Cost of $431,820 and Questioned Match Amounts of $343,184).

From October 1998 through September 2001, the Commission's support for its
compensation of personnel costs claimed under the Administrative and PDAT programs
did not meet the requirements specified in OMB Circular A-87, Cost Principlesfor State,
Local, and Indian Tribal Governments. Specifically, staff salaries and wages were not
supported by timesheets or periodic certifications that confirmed that the employees
worked solely on Federal programs. Therefore, we questioned $69,270 of PDAT costs,
and $362,550 of Administrative costs incurred during those periods. We also questioned
$343,184 of Administrative matching costs.

Section 1lh, Attachment B of OMB Circular A-87 stipulates that "where employees are
expected to work solely on a single Federal award or cost objective, charges for their
salaries and wages will be supported by periodic certifications that the employees worked
solely on that program for the period covered by the certification. These certifications
will be prepared at least semi-annually and will be signed by the employee or supervisory
official having first hand knowledge of the work performed by the employee."
       Recommendation

No recommendation is considered necessary since the Commission began completing and
submitting signed and approved timesheets each pay period since October 2001.

2. Matching contributions claimed were not properly supported (Questioned Match of
   $8,964)

The Commission could not provide supporting documentation for one in-kind matching
contribution that was included in the schedule detailing the components of the
Administrative grant's Schedule of Award Costs for the 1998 program year.

The General Provisions for State Administrative Awards stipulate that the Grantee must
maintain adequate supporting documents for its expenditures (Federal and non-Federal)
and in-kind contributions made under the grant. Costs must be shown in books or
records, e.g., disbursement ledger or journal, and must be supported by a source
document, such as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar
document.

       Recommendation

No recommendation is considered necessary, as the lack of support appears to be an
isolated case.

D. Other Compliance Findings

3. Lack ofprior approvals for budget modzfications

The Commission did not obtain prior written approval for purchases of equipment that
were not budgeted. During our tests of claimed costs, we noted that in program year
2000, equipment purchases totaling $3 1,325 were claimed under the Administrative
program, yet we found no evidence that the Corporation approved such purchases. Under
the Provisions for Program Development and Training, Disability Placement and State
Administrative Awards, the "Grantee must obtain the prior written approval of the
Corporation's Office of Grants Management before deviating from the approved budget
in any of the following ways.. .. Purchases of equipment over $5,000 using Grant funds,
unless specified in the approved application and budget." As a result of our audit, the
Commission submitted a budget revision to the Corporation to include equipment
purchases. The Corporation has approved the revised budget. As such, we have not
questioned any costs for equipment purchases.

       Recommendation

We recommend that the Commission develop and implement policies and procedures to
ensure that prior written approval is obtained from the Corporation for deviations from
the approved budget when required.
4. Lack of comparisons of budget to actual expenditures

The Commission does not perform budget to actual expense comparisons for the
Administrative and PDAT programs. While the State's accounting system has the ability
to compare budget to actual based on object class codes, the codes do not necessarily
coincide with the budget line items in the grants, thus requiring comparisons to be
performed manually. However, such manual comparisons have not been performed
regularly. We were informed that a comparison was performed at the end of fiscal year
2001 but no comparisons have been performed in fiscal year 2002, as the frequency with
which the comparisons will be performed has not been determined.

Section 4, Subpart C of the Provisions for Program Development and Training, Disability
Placement and State Administrative Awards stipulates the standards for financial
management systems that a grantee must maintain. This section also references OMB
Circular A-102 and its implementing regulations in the Code of Federal Regulations
(CFR) for further details regarding a grantee's financial management responsibilities. 45
CFR 2541.200 states that "fiscal control and accounting procedures of the State, as well
as its subgrantees and cost-type contractors, must be sufficient to.. .. actual expenditures
or outlays must be compared with budgeted amounts for each grant or subgrant."

       Recommendation

We recommend that the Commission implement policies and procedures to perform
comparisons of actual expenses to budgeted amounts on a regular basis, at least bi-
annually.

5. Noncompliance with reporting requirements

Out of a sample of eight Administrative grant FSRs and a sample of nine PDAT grant
FSRs selected for testing, five from each sample were not submitted timely.

Prior to program year 1999, the provisions governing the Administrative and PDAT
grants stipulated that FSRs were to be submitted within 30 days after the end of the
calendar quarters of March 3 1, June 30, September 30, and December 3 1, except in the
final year of the grant when the timeframe was extended to 90 days. Beginning with
program year 1999, the quarterly submission requirement was revised to a semi-annual
requirement.

        Recommendation

We recommend that the Commission implement policies and procedures to ensure that
FSRs are submitted on a timely basis.
6. Inadequate subgrantee monitoringprocedures

The policies and procedures implemented to monitor subgrantees have not been sufficient
andlor effective, nor has comprehensive documentation been developed to support the
monitoring efforts, as evidenced by the following:

          The Site Monitoring Tool 00-01 does not include any indication that (a)
          prohibited activities were detailed in the members' contracts, discussed during
          orientation sessions, or certification was obtained, and (b) stipends paid to
          members were reviewed.

           Other than an electronic file of completed site monitoring tools, a
           comprehensive listing of site visits actually performed does not exist.

           Based on audit procedures performed at selected subgrantees, we noted
           monitoring deficiencies at each. For example, Birmingham AIDS Outreach
           conducted an AmeriCorps program during program years 1997-98 through
           1999-2000. The majority of the Commission's oversight and monitoring took
           place in program year 1999-2000 only, which focused primarily on
           programmatic matters rather than both financial and programmatic matters. In
           another example, Birmingham Cultural and Heritage Foundation conducted an
           AmeriCorps program during program years 1997-98 and 1998-99. The
           majority of the Commission's oversight and monitoring took place in program
           year 1997-98 and focused on both financial and programmatic matters. Little
           oversight occurred during program year 1998-99.

The AmeriCorps Provisions state that, "Grantees are responsible for managing the day-
to-day operations of grant and subgrant supported activities. Grantees must monitor
grant and subgrant supported activities to assure compliance with applicable Federal
requirements and that performance goals are being achieved. Grantee monitoring must
cover each program, function or activity."

Further, the AmeriCorps Provisions state that, "the Grantee has full fiscal and
programmatic responsibility for managing all aspects of grant and grant-supported
activities, subject to the oversight of the Corporation. The Grantee is accountable to the
Corporation for its operation of the AmeriCorps Program and the use of Corporation
funds."

       Recommendation

We recommend that the Commission improve its monitoring of subgrantees. Procedures
should be added to the site visit tool so the Commission validates that (a) living
allowances are being paid in accordance with established guidelines and (b) prohibited
activities are being discussed or reviewed with members.
Other Procedures

We inquired of the Commission, and its subgrantees selected for audit, about their
awareness of the Corporation's GPRA goals and whether the Commission had provided
specific information to the subgrantees related to the goals. Neither the Commission nor
the subgrantees' staff were specifically aware of the GPRA. However, both the staff of
the Commission and the subgrantees indicated that progress reports describing their
accomplishments are submitted to the Corporation on a periodic basis. Further, the
Commission staff indicated that subgrantees submit an Annual Accomplishment Report
(AAR) to the Corporation. Some subgrantees confirmed that an AAR is completed and
submitted if the forms are received from the Corporation. Certain other subgrantees
indicated that they have not received this AAR form for completion.

RESPONSIBILITIES

Management's Responsibility

The Alabama Governor's Office on National and Community Service is responsible for:

       preparing FSRs in accordance with the terms and conditions of its grant awards
       from the Corporation. The FSRs and other financial records provide the
       information that is used to prepare the Schedules of Award Costs;

       establishing and maintaining internal controls over financial reporting; and

       complying with laws and regulations, including those related to monitoring of its
       subgrantees.

In fulfilling its responsibilities, management's estimates and judgments are required to
assess the expected benefits and related costs of internal control policies.

Auditors' Responsibility

Our responsibility is to issue our report on the Schedules of Award Costs.

We conducted our incurred cost audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued by the
Comptroller General of the United States, and the Audit Program for Full Scope Incurred
Cost Audit of Corporation Awards with Subrecipients (the Audit Program), issued by the
Corporation's Office of Inspector General. Those standards and the Audit Program
require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the Schedules of Award Costs
(Exhibits A through D), are free of material misstatement.
An audit includes:

       examining, on a test basis, evidence supporting the amounts and disclosures in the
       Schedules;
       assessing the accounting principles used and significant estimates made by
       management; and
       evaluating the overall presentation of the Schedules of Award Costs.

In planning and performing our incurred cost audit, we considered the Commission and
its subgrantees' internal control over financial reporting by obtaining an understanding of
the Commission and its subgrantees' internal controls, determining whether these internal
controls have been placed in operation, assessing control risk, and performing tests of
controls in order to determine our auditing procedures for the purpose of expressing our
opinion on the Schedules. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards.

As part of obtaining reasonable assurance about whether the Schedules of Award Costs
are free of material misstatement, we performed tests of the Commission and its
subgrantees' compliance with certain provisions of applicable laws, regulations and
provisions of the Corporation's grant agreements, noncompliance with which could have
a direct and material effect on the determination of Schedule amounts. We limited our
tests of compliance to these provisions and did not test compliance with all laws and
regulations applicable to the Commission.

We provided a draft of this report to the Commission and Corporation. The
Commission's and Corporation's responses to our report are included as Appendix A and
B, respectively.

DISTRIBUTION

This report is intended solely for the information and use of the Office of Inspector
General and management of the Corporation for National and Community Service, the
management of the Alabama Governor's Office on National and Community Service, and
the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.




June 20,2002
                                                                             Exhibit E-1


         Alabama Governor's Office on National and Community Service
                        Birmingham AIDS Outreach
                          Schedule of Award Costs
                 From October 1, 1997 to December 3 1,2000


                               Approved         Claimed        Questioned
Cost Category                   Budget           Costs           Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings           2,232            1,132            750
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation:

Administration:

Total Corporation Funds

Total Matching Funds

Total Funds
                                                                                Exhibit E-2


        Alabama Governor's Office on National and Community Service
               Birmingham Cultural and Heritage Foundation
                         Schedule of Award Costs
                From August 1, 1997 to December 3 1, 1999


                              Approved          Claimed        Questioned
Cost Category                  Budget            Costs           Costs

Member Support Costs:
   Living Allowance
   FlCA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings          2,218              442
  Supplies                          4,250            1,104
  Transportation                                         -                 -
  Equipment
  Other
Subtotal

Internal Evaluation:                                      -                -

Administration:                    28,647           17,998             2,84 1

Total Corporation Funds           573,267          360,167            59,877

Total Matching Funds              165,920          113,325            10,364

Total Funds
                                                                           Exhibit E-3


        Alabama Governor's Office on National and Community Service
                    Bulter County Board of Education
                         Schedule of Award Costs
                From October 1, 1997 to December 3 1,2001


                              Approved          Claimed       Questioned
Cost Category                  Budget            Costs          Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  C o p Sponsored Meetings          2,000            1,242             -
  Supplies                          5,371            5,091             -
  Transportation                         -                             -
  Equipment                              -                             -
  Other                               100                -             -
Subtotal                            7,47 1           6,333             -

Internal Evaluation:                     -                -            -

Administration:                    45,859           33,110             -

Total Corporation Funds           917,710          743,643             -


Total Matching Funds              33 1,039         281,125             -

Total Funds
                                                                               Exhibit E-4


         Alabama Governor's Office on National and Community Service
                       Calhoun Community College
                          Schedule of Award Costs
                 From October 1, 1998 to December 3 1,2001


                               Approved                         Questioned
Cost Category                   Budget        Claimed Costs       Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
   Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings           2,000                 -
  Supplies                           9,254            6,821
  Transportation                       500              48 1               -
  Equipment                              -                 -               -
  Other                                  -                 -               -
Subtotal                            11,754            7,302                -

Internal Evaluation:                      -               -                -

Administration:                     33,833           26,142              27

Total Corporation Funds            677,052          524,278            2,002

Total Matching Funds               320,111          229,085             349

Total Funds
                                                                                 Exhibit E-5


         Alabama Governor's Office on National and Community Service
                           Cooper Green Hospital
                          Schedule of Award Costs
                 From August 1,1998 to December 3 1,2001


                               Approved         Claimed        Questioned
Cost Category                   Budget           Costs           Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  0ther
Subtotal

Operating Costs:
  Corp. Sponsored Meetings           6,220               -
  Supplies                           2,900           2,341
  Transportation                     4,169           2,358
  Equipment                              -               -
  Other
Subtotal

Internal Evaluation:                      -               -                  -

Administration:                     34,126          13,507               1,450

Total Corporation Funds            683,121         397,771             117,908

Total Matching Funds               322,387         242,665             42,986

Total Funds
                                                                                     Exhibit E-6


              Alabama Governor's Office on National and Community Service
                         University of Alabama at Birmingham
                               Schedule of Award Costs
                      From October 1, 1998 to December 31,2001


                                        Approved         Claimed        Questioned
Cost Category                            Budget           Costs           Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
   Uniforms
   Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation:

Administration:

Cost claimed exceeds maximum
match percentage
PER * exceeds General Ledger

Total Corporation Funds

Total Matching Funds

Total Funds

* Periodic Expenditure Report
                                                                                              Exhibit E-7


        Alabama Governor's Office on National and Community Service
                       Birmingham Public Schools
                   Schedule of Award Costs (unaudited)
                From October 1, 1999 to December 3 1,2001


                                  Approved           Claimed       Questioned
Cost Category                      Budget             Costs*         Costs

Member Support Costs:
   Living Allowance           $     301,410      $     138,001     $
   FICA & Workers Comp               25,126             10,557               -
   Health Care                       22,440              6,324               -
Subtotal                            348,976            154,882               -

Other Member Costs:
  Training & Education                3,100                                  -
  Uniforms                              660                613               -
  Other                               2,548                500               -
Subtotal                              6,308              1,113

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings             4,000             1,750
  Supplies                             2,660                 -               -
  Transportation                       3,318                                 -
  Equipment                            2,400                   -             -
  Other                                  663                   -             -
Subtotal                              13,041             1,750               -

Internal Evaluation:                         -

Administration:                       22,601             9,667

Total Corporation Funds              457,899           193,450

Total Matching Funds                 263,519           106,357

Total Funds

* The claimed column does not include amounts related to program year 2000-01 since this subgrantee
  has not yet submitted a request for reimbursement to the Commission for the 2000-01 program year.
                                                                                     Exhibit E-8


        Alabama Governor's Office on National and Community Service
                      Family Healthcare of Alabama
                   Schedule of Award Costs (unaudited)
                From October 1, 1997 to December 3 1,2001


                                   Approved          Claimed      Questioned
Cost Category                       Budget            Costs*        Costs

Member Support Costs:
   Living Allowance            $     655,860     $     555,459    $
   FICA & Workers Comp                52,405            44,523
   Health Care                        70,650            39,035                   -
Subtotal                             778,915           639,017                   -

Other Member Costs:
  Training & Education                  5,350            1,915
  Uniforms                                825              665
   Other                                3,100            1,325
Subtotal                                9,275            3,905

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings             2,000
  Supplies                             7,485             2,756
  Transportation                      24,872             3,276
  Equipment                              300               300
  Other
Subtotal

Internal Evaluation:                                                             -
Administration:                       50,602            28,220                   -

Total Corporation Funds             1,O 12,232         780,018                   -

Total Matching Funds                 401,659           29 1,727                  -

Total Funds

*The claimed costs are only through July 2001 which represents the most recent
program cost information available.
                                                                           Exhibit E-9


        Alabama Governor's Office on National and Community Service
                      Mobile AIDS Support Services
                   Schedule of Award Costs (unaudited)
                From October 1, 1997 to December 3 1, 1998


                              Approved         Claimed        Questioned
Cost Category                  Budget           Costs           Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings          2,000            3,700
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation:

Administration:

Total Corporation Funds

Total Matching Funds

Total Funds
                                                                           Exhibit E-10


        Alabama Governor's Office on National and Community Service
                           Selma Digital Divide
                   Schedule of Award Costs (unaudited)
                From October 1,2000 to December 3 1,2001


                                 Approved      Claimed        Questioned
Cost Category                     Budget        Costs           Costs

Member Support Costs:
   Living Allowance          $      153,000
   FICA & Workers Comp               13,616
   Health Care                       14,056
Subtotal                            180,672

Other Member Costs:
  Training & Education
  Uniforms
  Other
Subtotal

Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal

Operating Costs:
  Corp. Sponsored Meetings
  Supplies
  Transportation
  Equipment
  Other
Subtotal

Internal Evaluation:

Administration:

Total Corporation Funds

Total Matching Funds

Total Funds
                                                                                Exhibit F

      Follow-up on Pre-Audit Survey Report Findings and Recommendations
  OIG Audit Report No. 01-20, Pre-Audit Survey of the Alabama State Commission on
                         National and Community Service


We reviewed the corrective actions taken by the Commission through April 2002 in
response to the pre-audit survey findings. Our assessment of the status of the pre-audit
survey findings are set out below:

Selecting Subgrantees

Lack of a Comprehensive Applicant Listing

"The Commission does not have a comprehensive listing of grant applicants prior to
program year 2000-01. We tested two application files for program year 1999-2000 and
noted that the reasons for rejection were documented and communicated to the applicant;
however, due to the lack of a comprehensive listing of grant applicants, we were not able
to determine a complete population for sampling purposes. As a result, the overall
fairness of the selection process could not be tested."

Lack of Documented Subgrantee Selection Procedures

"Current Commission management does not know what, if any, written subgrantee
selection guidelines and procedures were employed prior to program year 1999-2000
because of a lack of documentation. An important part of a sound control environment
should be the maintenance of written procedures to provide guidance for all key
processes performed by an entity."

Financial Systems Not Evaluated as Part of Subgrantee Selection

"The Commission has not developed an adequate process to evaluate a grant applicant's
financial systems. As a result, grant funds may be provided to an organization that does
not have financial systems in place to properly account for those funds and ensure
compliance with related grant requirements. AmeriColps Provisions Section C.21.a
states, "The grantee must maintain financial management systems that include standard
accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures as necessary." In order to meet this responsibility, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, since this information forms the basis of a majority of Commission
expenditure reporting."
Prior Subgrantee Evaluations Not Provided to Selection Oficials

"For program years prior to 1999-2000, communication of renewal applicants' prior
evaluations was not addressed in guidance provided to selection officials. Therefore,
there is increased risk that Commission personnel may have provided certain information
to the selection officials about one previously funded applicant, but omitted that
information in their communications about other previously funded applicants. If similar
information was not consistently communicated about each previously funded applicant,
then the fairness of the selection process may have been impaired and Commission
personnel may have unintentionally biased the selection officials. An important part of a
sound control environment is the consistent communication of the results of previous
interactions with applicants. Such information is crucial to making informed business
decisions in the subgrantee selection process."

Lack of Mass Media Advertising

"The Commission does not use mass media advertising for notice of funds availability.
As a result, all interested parties may have not been informed of funding availability,
thereby eliminating certain potential AmeriCorps programs from the selection process."

Missing or Unsigned Conflict of Interest Forms

"Conflict of interest forms could not be located for 2 of 15 current Commissioners. In
addition, signatures were missing on 4 of 13 current Commissioner conflict of interest
forms reviewed. If Commissioners or selection officials have conflicts of interest but do
not report them, the fairness of the selection process may be impaired. An important part
of a sound control environment is the implementation of procedures to ensure objectivity
within the selection process. One method to ensure this objectivity is to require selection
officials to annually certify in writing that they have no conflicts of interest."

Recommendations

The report recommended that the Commission:
       Establish a file each year for denied applications. When applications are received,
       log the application on a sheet in the front of the file. File the applications along
       with the selection officials' reports documenting the reasons for denial and
       Commission's concurrence and all correspondence related to the application.

       Incorporate into its procedures for subgrantee selection, an evaluation of the
       adequacy of the applicants' financial systems to ensure applicants have systems in
       place to properly account for grant funds and comply with related grant
       requirements.

       Develop and implement an objective, standardized method of communicating the
       results of the Commission's evaluation of previously funded applicants. This
         method should ensure that the same type of information is communicated for each
         applicant. The Commission should also consider providing this information in
         writing to ensure consistency of content and availability of the information to the
         selection officials while they are making their funding determinations.

         Place notice of funds availability in major state-wide publications or utilize other
         forms of mass media.

         Develop and implement procedures that require Commissioners and selection
         officials to sign conflict of interest statements annually after discussion of related
         issues with Commission staff and review of guidance provided.

Status

The Commission adopted a manual (Conducting a Grant Application Review Process)
that was effective in December 1999. The manual describes the purpose of the
subgrantee selection process, how to implement the process, and the final outcome of the
completed selection process. The Commission appears to have implemented appropriate
corrective actions based on our review of the manual, discussions with Commission
personnel, and review of documentation supporting the application process for the 2000-
01 program year. We consider the above recommendations to be closed.

Administering Grant Funds

Lack of Proper Procedures over Disbursement to Subgrantees

"An analytical review of financial data is not performed in conjunction with grant
administration. For example, draw-down requests and expenditures to date are not
compared to budgets provided by the subgrantees, and Commission personnel do not
investigate if a subgrantee has requested draw-down of an excessive portion of grant
funds early in the program year. In addition, Commission personnel do not review actual
documentation (e.g., receipts) in connection with their review of draw-down requests or
subgrantee FSRs. Without proper documented review of subgrantee FSRs, errors on the
FSRs may not be detected. Also, if information reported on subgrantees' FSRs are not
agreed to the subgrantees' accounting system and other supporting documentation, there
is an increased risk that subgrantees are incorrectly reporting amounts on their FSRs."

Inadequate Grant Administration Policies and Procedures over Timeliness of Subgrantee
Report Submission and Audit Follow-up

"While the Commission has a relatively small number of subgrantees, it lacks a formal
process to ensure that FSRs, progress reports, OMB Circular A-1 33 reports and other
audit reports are received from subgrantees and reviewed on a timely basis. Ln addition,
prior to program year 2000-01, there are no documented procedures for resolution of
issues related to audit findings."
Lack of Prohibited Activities Training

"The Commission does not provide formal training to Members on prohibited activities.
Without specific training related to the types of activities prohibited by the AmeriCorps
program, Members may unknowingly engage in activities which are expressly prohibited
while accumulating service or training hours."

Lack of Commission-Level Records and Supervisory Review

"The Commission does not have a comprehensive file of Commission-level FSRs and
related supporting documentation prior to the fourth quarter 1999. In addition, review of
internal Commission-level financial reports is not documented in writing. As a result,
Commission-level FSRs and related supporting documentation are not available to
support Commission-level financial results."

Lack of Documentation of Required State Match

"The Commission does not have records which support that the State of Alabama has in
fact advanced funds or provided in-kind matching contributions, as required."

Recommendations

The report recommended that the Commission:
   Consider developing written policies and procedures which require that an analysis of
   expenditures to date versus budget amounts be prepared prior to authorizing draw-
   downs. We recommend that the Commission review subgrantee draw-down requests
   and FSRs and formally document what review procedures were performed. We also
   recommend that the Commission include examples of the FSRs reviewed and
   document procedures performed in agreeing subgrantees' FSRs to their accounting
   systems or other supporting documentation as part of site visits.

    Develop and implement formal procedures to ensure that OMB Circular A- 133
    reports or other audit reports are received from applicable subgrantees on a timely
    basis and that review of the report is documented. The Commission should
    implement a "received starnpldate" process to document when reports are received.
    In addition, formal procedures for resolving audit issues should be developed and
    documented.

    Develop a formal training module on prohibited activities to be presented during new
    member orientation.

    Develop and implement policies and procedures to ensure that Commission-level
    FSRs and related supporting documentation are maintained. In addition, the
    Executive Director should review all financial reports monthly and initial them to
    indicate his review. The Commission should also maintain documentation to support
    all cash and in-kind matching contributions.
Status

Although the Commission developed and implemented various policies and procedures,
these policies and procedures did not include a review of subgrantee FSRs. In addition,
FSRs (both subgrantee and Commission-level) are not reviewed by the program office's
management. Further, the policies and procedures implemented regarding the
monitoring of the timely submission of FSRs and Progress Reports did not appear to be
operating effectively based on our test work on progress reports and FSRs submitted for
program year 2000-0 1.

The Commission indwated that providing formal training on prohibited activities would
not be feasible. Instead, it emphasized that prohibited activities were discussed during
subgrantee member orientation. The Commission also indicated that it would verify that
members were not participating in prohibited activities during site visits. However, the
site monitoring tool used during such visits does not include a procedure to ensure that
prohibited activities are listed or included in the member agreement or training agenda.

We consider these recommendations to be open and have included recommendations
related to the exceptions noted in our incurred cost audit report.

Evaluating and Monitoring Subgrantees

Luck of Proper Site Visit Policies and Procedures

"The Commission does not maintain a listing of site visits performed, and there is a lack
of control over ensuring that site visits are performed timely. In addition, the
Commission does not have written policies and procedures to follow up on subgrantees'
responses to site visit comments and determine that corrective action has been taken."

Inadequate Subgrantee Monitoring Documentation

"The monitoring tool used prior to program year 2000 was in a "yes/no" answer format.
Therefore, little detail is available related to monitoring activities. For example,
Commission personnel stated that they reviewed the financial system (a "yes" answer),
but there is no explanation of the system or details supporting their conclusion.
Commission personnel do not document the sample items tested or their rationale for
sample selection. Such information should be documented to support site visit testing of
Member timesheets, personal expenses, matching expenses, and programmatic
accomplishment statistics. In addition, the monitoring tool lacks specific sections related
to review for prohibited activities and review of Member allowances and hours
accumulation. As a result, control weaknesses or instances of material noncompliance
related to the AmeriCorps program of which the Commission is not aware may exist and
not be detected or corrected."
Missing Labor Hour Certifications

"For subgrantees with multiple grants, the site visit reports we reviewed indicated that
labor hour certifications were not maintained to support work charged to the Commission
grant for the period under review. As a result, policies and procedures at the subgrantee
level are not sufficient to ensure that that the work of subgrantee personnel is specifically
related to the Commission grant and that the required effort reporting systems are in
place."

Recommendations

The report recommended that the Commission:
   Establish and follow an annual site visit plan. In addition, we recommend that the
   Commission clearly document the results of all site visits and related resolution of all
   identified issues.

        Develop a site visit tool which provides for:

               Review of documentation supporting member eligibility.

               Review of member timesheets to:

                  i.    Ensure that a supervisor approved the hours recorded and that the
                        supervisor had appropriate knowledge of the member's activities.
                  ..
                 11.    Determine whether hours were spent on allowable activities and in
                        accordance with the intent of the grant and the program, and that
                        prohibited activities were not performed.

                 iii.   Agree hours into the traclung system used by the subgrantee to
                        determine completion of educational service award requirements.

                Review of member contracts.

                Review of change of status forms and forms used to document waivers for
                compelling personal circumstances, and eligibility for day care.

                Interview of members about timesheets, contracts, prohibited activities,
                and day care eligibility.

                Review of living allowance to determine if it was paid according to
                established guidelines.

                Comparison of total hours in the tracking system to hours reported on the
                end-of-term form for members who have earned awards. Ensure hours
                met minimum requirements for award certified as earned (full time, part
                time or reduced part time).
   Develop and implement written policies and procedures to ensure appropriate
   corrective actions are taken and issues are resolved or document when deficiencies
   are noted.

   Emphasize the importance of completion of labor hour certifications to support time
   charged to Corporation grants.

Status

The Commission does not maintain a listing of site visits performed, nor are site visits
performed timely. In program year 1999-2000, the Commission began compiling a
calendar that listed all of the tentatively scheduled site visits. However, not all of the
scheduled site visits were conducted. In both program years 1999-2000 and 2000-01,
only one site visit per subgrantee occurred. As of April 2002, no site visits had been
conducted for program year 2001-02. While site visits had been planned for March 2002,
the site visits were postponed until late April 2002 due to the Corporation's financial
statement audit. Furthermore, although copies of completed site monitoring tools are
retained, a comprehensive listing of site visits performed is not maintained.

The Commission's site monitoring tool was revised for the 2000-01 program year. This
site monitoring tool did not, however, adequately address the matters related to prohibited
activities or living allowances.

We have included recommendations addressing the exceptions noted in our incurred cost
audit report.
                                      APPENDIX A

               ALABAMA GOVERNOR'S OFFICE ON NATIONAL
                  AND COMMUNITY SERVICE RESPONSE*




* The Commission's consolidated response includes reference to attachments and specific
responses to the findings as provided by subgrantees of the Commission. The attachments and
subgrantee responses have not been included for the sake of brevity but are available upon
request from the Corporation OIG.
                                                                   Appendix A



                                                             RSA UNOV BLRLDING, Sum 134
                                                               1 0 0 NORM UNKNS m
                                                             MO~IERY      ,
                                                                        AlABAMA 36 130




                             September 13,2002




Mr. Terry E. Bathen
Acting Inspector General
Office of Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Bathen:

Please see the attached response to the draft report of the KPMG LLP audit of
the Alabama Governor's Office on National and Community Service for the
calendar years 1997 through 2001.

If you have any questions concerning this response or the attachments, please
contact me at (334) 242-7110 or email gbmckell@~oncs.state.al.us.




                                        Executive Director


Attachments
                                                         Appendix A, Continued


                       Response to the Draft Report
    For the Alabama Governor's Office on National and Community Service
                    Calendar Years 1998 through 2001


Grants and Program Management

In response to the material weakness identified in the Report on Internal Control
over Financial Reporting, the Commission has experienced significant personnel
turnover resulting in gaps in the administration of the program. In order to
remedy the cited findings, GONCS has implemented the following corrective
actions:

   Effective with the funding applications for Program Year 2002-2003, a
   questionnaire is submitted to the subgrantee prior to the grant award in order
   to evaluate the overall internal controls and financial accounting system. See
   Attachment 1.
   Effective April I , 2002, GONCS began using a programmatic monitoring
   checklist which was revised based on recommendations from the pre-audit
   survey. Program staff complete the checklist during monitoring visits to
   ensure compliance with all applicable regulations and guidelines. A limited
   financial review (Attachment 2) of the accounting system and internal controls
   is included in the programmatic review. Please see Attachment 3. We plan
   to perform two to four visits of each AmeriCorps program in the 2002-2003
    program year based on a risk-based assessment of the subgrantee.
    Effective October 1, 2001, the ADECA accounting staff is utilizing the WBRS
    system to monitor and assure the accurate and timely submission of FSRs.
    In addition, a calendar identifying deadlines and due dates has been included
    in the Policies and Procedures Manual provided to each subgrantee. Please
    see the additional response to this finding under the Financial Management
    and Reporting Section, page 4.
    Effective October 1, 2002, subgrantees are required to submit all supporting
    documentation with their drawdown reports to include amounts reported as in-
    kind. Since ADECA began reviewing the financial documentation, cash has
    not been advanced to subgrantees. All documentation is reviewed by the
    ADECA accounting staff to determine compliance with applicable cost
    principles and for proper approvals.
    ADECA Audit Section staff will include GONCS subgrantees in the sample of
    subgrantees in their annual audit plan. This will allow onsite financial
    compliance audits and internal control evaluations. Please see the additional
     response concerning the ADECA Audit Section responsibilities under the
     Financial Management and Reporting Section, page 4.
                                                         Appendix A, Continued



The following responses are provided to specific cited instances.
FINDING:      Financial Status Reports, Progress Reports, and member status
forms were not submitted timely, properly completed, appropriately signed, or
dated in certain instances for all subgrantees audited.

RECOMMENDATIONS: Complete the implementation of the recently
developed policies and procedures to monitor the programmatic and financial
activity of all subgrantees. Conduct site visits as frequently as necessary based
on the Commission's assessment of the risk associated with a particular grantee;
and during such site visits ensure that the subgrantee is complying with the
revised Commission policies and procedures and adequately implements
recommended corrective actions to resolve identified deficiencies.

RESPONSE: Please see our above response in the cited Grants and Program
Management findings.


FINDING: Vendor Invoices, primarily related to staff benefits, were not always
appropriately approved by the Program Director at the Birmingham Cultural and
Heritage Foundation.

RECOMMENDATION:             No recommendation is considered necessary as the
grant expired after the 98/99 program year and the AmeriCorps program no
longer exists at this subgrantee.

RESPONSE: Please see the attached response from Birmingham Cultural and
Heritage Foundation. Also, see our above response as this finding relates to all
subgrantees in the cited Grants and Program Management findings.


FINDING: Cooper Green Hospital (CGH) does not have a procedure to
account for in-kind contributions, including a donor-signed voucher for the goods
and services provided.

RECOMMENDATION:             We recommend that CGH implement procedures to
require donor certificates at the time the donation is made. A sample of an in-
kind donation form was provided to the program director for their use.
Additionally, we recommend that CGH review and record in-kind donations on a
periodic basis.

 RESPONSE: Please see the attached response from CGH and our above
 response as this finding relates to all subgrantees in the cited Grants and
 Program Management findings.
                                                         Appendix A, Continued


FINDING: Cooper Green Hospital used healthcare benefits estimates to claim
costs from the Corporation rather than actual healthcare costs incurred.

RECOMMENDATION:           We recommend that CGH implement procedures to
review and monitor the costs that are being claimed against the AmeriCorps
grant.

We also recommend that the Commission in conjunction with the Corporation
review the condition and determine whether collection of the amounts identified
as questioned costs is necessary.

RESPONSE: Please see the attached response from CGH and our above
response as this finding relates to all subgrantees in the cited Grants and
Program Management findings.


FINDING:     Birmingham Aids Outreach lacked adequate segregation of duties.

RECOMMENDATION:            Ensure that current subgrantees establish procedures
to adequately segregate financial duties, to ensure that expenses incurred are
accurately reported to the Commission, and vouchers are cancelled timely.

RESPONSE: Please see our above response as this finding relates to all
subgrantees in the cited Grants and Program Management findings.


FINDING: The University of Alabama at Birmingham (UAB) failed to stamp
invoices as paid upon payment in order to prevent their resubmission.

RECOMMENDATION:            Ensure that current subgrantees establish procedures
to adequately segregate financial duties, to ensure that expenses incurred are
accurately reported to the Commission, and vouchers are cancelled timely.

RESPONSE: Please see the attached response from UAB and our above
response as this finding relates to all subgrantees in the cited Grants and
Program Management findings.


Financial Management and Reporting

FINDING:
Many of the weaknesses identified at the Commission during the pre-audit
survey were substantiated by exceptions identified for individual subgrantees that
resulted in questioned costs. Subsequent to the pre-audit survey, the
Commission has worked to develop, and is still developing,'formal procedures to
improve controls and ensure compliance with all applicable regulations.
                                                          Appendix A, Continued


However, the following conditions continue to exist and require corrective action.
   Untimely receipt of subgrantee Financial Status Report (FSRs) and Progress
   Reports.
   Lack of review of FSR1ssubmitted by the subgrantees for accuracy or
   agreement with the subgranteesl accounting system.
   Lack of review of Commission-level FSRs by the Commission's program
   office prior to their transmittal to the Corporation.
Further, during the incurred cost audit, we found that the Commission lacked
procedures to perform comparisons of budget to actual expenditures on a regular
basis.

RECOMMENDATION:
We recommend that the Commission continue to place emphasize on the
implementation of its recently developed set of policies and procedures for all
Corporation grants.

RESPONSE:
  Beginning with the 2001-2002 Program Year, the State Commission began
  requiring subgrantees to use WBRS for the submission of quarterly Financial
  Status Reports and mid-year Progress Reports. Effective October 1, 2002,
  the Commission will include within the Commission's Internal Policies and
  Procedures Manual a policy (Attachment No.4) to notify the subgrantees
  when Financial Status Reports and Progress Reports are due. This policy
  also provides for notification by State Commission to subgrantees of non-
  compliance if the subgrantees fail to meet the designated deadlines.
  Beginning with the 2001-2002 Program Year, the Commission began
  verifying the accuracy of the grantees PER Report on WBRS (PER Report
  generates subgrantee FSR). The Commission uses the subgrantee's
  approved drawdown report to determine if the expenditures recorded in PER
  are reported correctly. The drawdown report reflects by line item, approved
  budget, cumulative expenditure, and comparison of budget to actual. As part
  of the approval process of drawdown reports, subgrantees must submit
   supporting documentation (copies of subgrantee ledgers or reports generated
  from subgrantee ledgers, paid invoices, cancelled checks, in-kind forms, etc.)
   Due to lack of staff, the Commission has not been able to perform financial
   on-site monitoring of the accounting records of the subgrantees. The
   Commission has requested that ADECA staff perform on-site financial audits
   of subgrantees. Due to staff limitations, ADECA cannot perform financial
   monitoring at this time. When additional staff is hired and trained, ADECA will
   include GONCS subgrantees in the ADECA Audit Plan. The audit plan
   includes a sample of subgrantees from all administered federal programs.
   The ADECA audit staff will review single audit reports submitted by GONCS
   subgrantees and will coordinate resolution of any audit findings.

    The Commission currently has scheduled on its internal calendar the
    submission of an Actual vs Budget Report for all Commission-level awards.
                                                         Appendix A, Continued


   The accounting staff submits these reports to the Executive Director 15 days
   prior to the due date of Commission-level FSRs. The program office
   coordinates with accounting staff on any needed changes. The reports
   provide detail of expenditure classification, allowing the Executive Director
   final approval of Commission-level FSRs. Effective October 1, 2002, this
   procedure will be included as a written policy (Attachment No. 4).

Administrative and Program Development and Training (PDAT) Grants

C. Compliance Findings Resulting in Questioned Costs
FINDING:
1. lnadequate documentation to support compensation for personnel services.
2. Matching contributions claimed were not properly supported.

RECOMMENDATION:
1. No recommendation is considered necessary since the Commission began
   completing and submitting signed and approved timesheets each pay period
   since October 2001.
2. No recommendation is considered necessary, as the lack of support appears
   to be an isolated case.

RESPONSE:
1. Reported compensation for personnel services was for staff appointed by the
   Governor to serve in specified positions within the Governor's Office on
   National and Community Service (GONCS). GONCS was established to
   provide necessary administrative and staff support services to the State
   Commission on National and Community Service (Commission). The
   Commission was established to encourage community service and volunteer
   participation as a means of community and state problem-solving; to promote
   and support voluntary citizen involvement in government and private
   programs throughout the state; to develop a comprehensive vision and
   strategic plan for community service initiatives in Alabama; and to serve as
   the state's liaison between national and other state organizations in concert
   with the Alabama strategic plan. (Attachment No. 5)
2. The Commission has prepared and submitted to the Corporation a revised
   FSR which omits this undocumented in-kind cost. The revised FSR meets
   match percentage requirements. (Attachment No. 6)



D. Other Compliance Findings
FINDING:
3. Lack of prior approvals for budget modifications.
4. Lack of comparisons of budget to actual expenditures.
5. Noncompliance with reporting requirements.
6. lnadequate subgrantee monitoring procedures
                                                         Appendix A, Continued



RECOMMENDATION:
3. We recommend that the Commission develop and implement policies and
   procedures to ensure that prior written approval is obtained from the
   Corporation for deviations from the approved budget when required.
4. We recommend that the Commission implement policies and procedures to
   perform comparisons of actual expenses to budgeted amounts on a regular
   basis, at least biannually.
5. We recommend that the Commission implement policies and procedures to
   ensure that FSRs are submitted on a timely basis.
6. We recommend that the Commission improve its monitoring of subgrantees.
   The measures should include procedures in the site visit tool to determine
   that (a) living allowances are being paid in accordance with established
   guidelines and (b) prohibited activities are being discussed or reviewed with
   members.

RESPONSE:
3. The Commission has developed and implemented a procedure to obtain
   written approval from the Corporation for deviations from the approved budget
   (Attachment No. 4).
4. The Commission has developed and implemented policies and procedures to
   prepare a report providing comparison of actual expenses to budgeted
   amounts at the end of the 6'", gth,and 12'~month of the budget period
   (Attachment No. 4).
5. The Commission has implemented policies and procedures to ensure the
   timely submittal of FSRs to the Corporation (Attachment No. 4).
6. Effective March 2002, the Commission established a site visit schedule for
   monitoring of all subgrantees. All sites were monitored as scheduled. The
   Program Officer conducted all the visits and used the revised site visit tool.
   This revised site tool resulted from recommendations from the pre-audit
   survey to include verification that living allowances are being paid in
   accordance with established guidelines and that member are informed of
   prohibited activities. (Attachment 3).


We would like to ask the Corporation for National and Community Service for
consideration in our proposed corrective action and guidance as needed. It is
the intention and commitment of GONCS to remain in compliance with our grant
and require appropriate oversight and guidance to our subgrantees. We
appreciate the staff of KPMG and their efforts to identify our weaknesses and
provide recommended corrective actions. GONCS assures the Corporation for
National and Community Service that they will commit every effort to corrective
action as recommended and required by their guidance and direction.
                      APPENDIX B


CORPORATION FOR NATIONAL AND COMMUNITY SERVICE RESPONSE
                                                                                                            Appendix B
                                                         CORPORATION
                                                                            --   -



                                                         FOR NATIONAL
                                                                      AND   ---
                                                          COMMUNITY




To:                 Russell George, Inspector General                        *


Through:            William Anderson, Deputy chief

From:               Peg Rosenberry, Director of Grants Manage
                    Peter Heinaru, Director, AmeriCorps State
                                                                                              1
Date:               September 12,2002

Subj:                Response to OIG Draft Audit Report 02-2 1: Incurred Cost Audit of Grants
                     Awarded to the Alabama Governor's Office on National and Community Service
                     Commission


We have reviewed the draft audit report of the Alabama Community Service Commission grants.
Due to the limited timeframe for response, we have not yet conducted a comprehensive review
nor analyzed documentation from the Commission supporting the questioned costs. We will
respond to all findings and recommendations when the audit is issued. The Alabama
Commission has provided an extensive response and begun corrective action as needed.

As noted in the audit report, one of the major areas of questioned costs related to eligibility
requirements for AmeriCorps members. The auditors state that over $300,000 "represents
amounts related to failure to meet citizenship eligibility requirements." This could imply that the
participants were not eligible to serve in AmeriCorps because they were not citizens or
permanent resident aliens. However, in most cases, we expect that the members are citizens, but
the programs could not provide the appropriate documentation to confirm citizenship. During
the audit resolution process, we will work with the commission to secure the appropriate
documentation.




NATIONAL SERVICE: GETTING THINGS DONE                                            1201 New York Avenue, N.W. Washington, DC 20525
AmeriCorps   Learn and Senv America   National Senior Service Corps              telephone: (202) 606-5000 webrite: w~~vwnarionahewice.org
